<html>
<title> - [H.A.S.C. No. 110-90] BENEFITS AND MEDICAL CARE FOR FEDERAL AND U.S. CONTRACTOR EMPLOYEES DEPLOYED TO IRAQ AND AFGHANISTAN</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
                         [H.A.S.C. No. 110-90]

                     BENEFITS AND MEDICAL CARE FOR

                      FEDERAL AND U.S. CONTRACTOR

                       EMPLOYEES DEPLOYED TO IRAQ

                            AND AFGHANISTAN

                               __________

                                HEARING

                               BEFORE THE

               OVERSIGHT AND INVESTIGATIONS SUBCOMMITTEE

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                           SEPTEMBER 18, 2007

                                     
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                    
                               ----------
                       U.S. GOVERNMENT PRINTING OFFICE 

38-662 PDF                     WASHINGTON : 2008 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 

  
































               OVERSIGHT AND INVESTIGATIONS SUBCOMMITTEE

                     VIC SNYDER, Arkansas, Chairman
JOHN SPRATT, South Carolina          W. TODD AKIN, Missouri
LORETTA SANCHEZ, California          ROSCOE G. BARTLETT, Maryland
ELLEN O. TAUSCHER, California        WALTER B. JONES, North Carolina
ROBERT ANDREWS, New Jersey           JEFF MILLER, Florida
SUSAN A. DAVIS, California           PHIL GINGREY, Georgia
JIM COOPER, Tennessee                K. MICHAEL CONAWAY, Texas
HANK JOHNSON, Georgia                GEOFF DAVIS, Kentucky
JOE SESTAK, Pennsylvania
               Steve DeTeresa, Professional Staff Member
                Thomas Hawley, Professional Staff Member
                Roger Zakheim, Professional Staff Member
                     Sasha Rogers, Staff Assistant

























                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2007

                                                                   Page

Hearing:

Tuesday, September 18, 2007, Benefits and Medical Care for 
  Federal and U.S. Contractor Employees Deployed to Iraq and 
  Afghanistan....................................................     1

Appendix:

Tuesday, September 18, 2007......................................    33
                              ----------                              

                      TUESDAY, SEPTEMBER 18, 2007
  BENEFITS AND MEDICAL CARE FOR FEDERAL AND U.S. CONTRACTOR EMPLOYEES 
                    DEPLOYED TO IRAQ AND AFGHANISTAN
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Akin, Hon. W. Todd, a Representative from Missouri, Ranking 
  Member, Oversight and Investigations Subcommittee..............     3
Snyder, Hon. Vic, a Representative from Arkansas, Chairman, 
  Oversight and Investigations Subcommittee......................     1

                               WITNESSES

Bradshaw, Hon. Patricia S., Deputy Under Secretary of Defense 
  (Civilian Personnel Policy), Department of Defense.............     5
Farrell, Brenda S., Director, Defense Capabilities and 
  Management, U.S. Government Accountability Office..............     4
Hallmark, Shelby, Director, Office of Workers' Compensation 
  Programs, Employment Standards Administration, U.S. Department 
  of Labor.......................................................     8

                                APPENDIX

Prepared Statements:

    Akin, Hon. Todd..............................................    39
    Bradshaw, Hon. Patricia S....................................    74
    Farrell, Brenda S............................................    42
    Hallmark, Shelby.............................................    83
    Snyder, Hon. Vic.............................................    37

Documents Submitted for the Record:
    [There were no Documents submitted.]

Questions and Answers Submitted for the Record:

    Mr. Akin.....................................................    99
    Dr. Snyder...................................................    95
  BENEFITS AND MEDICAL CARE FOR FEDERAL AND U.S. CONTRACTOR EMPLOYEES 
                    DEPLOYED TO IRAQ AND AFGHANISTAN

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                 Oversight and Investigations Subcommittee,
                       Washington, DC, Tuesday, September 18, 2007.
    The subcommittee met, pursuant to call, at 10:07 a.m., in 
room 2212, Rayburn House Office Building, Hon. Vic Snyder 
(chairman of the subcommittee) presiding.

  OPENING STATEMENT OF HON. VIC SNYDER, A REPRESENTATIVE FROM 
 ARKANSAS, CHAIRMAN, OVERSIGHT AND INVESTIGATIONS SUBCOMMITTEE

    Dr. Snyder. The hearing will come to order.
    Good morning, and welcome to the Subcommittee on Oversight 
and Investigations' hearing on benefits and medical care for 
Federal civilian and U.S. contract employees deployed to Iraq 
and Afghanistan.
    Recently, the subcommittee has begun to investigate a 
variety of interagency issues raised by the ongoing wars in 
Iraq and Afghanistan. Military means alone are clearly not 
enough to bring about success in either country. Civilians from 
across the Federal Government are increasingly being called 
upon to help us achieve our goals in these dangerous 
environments through the use of Provincial Reconstruction Teams 
(PRT) and other civilian-oriented programs.
    An unfortunate but inevitable consequence of deploying 
civilians to combat zones is that some of them may be injured 
or killed. The purpose of today's hearing is to consider issues 
related to the hazardous nature of this duty, and we have 
grouped those into three basic questions.
    First, given the critical need for U.S. Government Federal 
civilian employees deployed to Iraq and Afghanistan, what kind 
of incentives and benefits are provided to encourage those with 
the right skills and experience to do so?
    Second, what practices and policies are in place within the 
military health-care system to provide medical care for 
deployed Federal civilian employees, both while overseas and 
upon returning home?
    Of course, most of the civilians overseas in Iraq and 
Afghanistan are not Federal employees, but are instead working 
for U.S. Government contractors. Thus, a third purpose of 
today's hearing is to examine the practices employed and 
policies in place for providing medical care and medical 
support to wounded contract employees.
    So we have what are the incentives for our Federal civilian 
employees, how do we take care of them--our Federal civilian 
employees--and then the third, what about the contract 
employees of U.S. Government contractors.
    There have been approximately 6,000 Department of Defense 
(DOD) civilians deployed to Iraq and 1,500 to Afghanistan since 
2001. More than 1,400 Department of State employees have served 
in Iraq since 2003. U.S. Government employees from DOD, State 
and other Federal agencies, including Justice, Agriculture and 
Labor, volunteer to serve in these positions.
    To date, 118 DOD civilians have been wounded, and seven 
have been killed. Three State Department employees have been 
killed in Iraq and Afghanistan. Overall, the Department of 
Labor Office of Workers' compensation Programs, which handles 
claims for medical benefits by government civilians, reports 
166 claims submitted for injuries sustained by U.S. Federal 
civilians in Iraq and Afghanistan.
    With respect to contractors, estimates range as high as 
180,000 in Iraq as of July 2007. The bulk of these, of course, 
are Iraqi citizens and Third Country nationals, but 
approximately 21,000 are U.S. citizens. Accurate casualty 
numbers are not available, but as many as 1,000 contractors, 
both U.S. and non-U.S. citizens, have reportedly been killed, 
and about 13,000 have been wounded.
    We have assembled a panel of witnesses to help us examine 
and sort out these issues this morning--we appreciate you all 
being here--Ms. Brenda Farrell, Director of the Defense 
Capabilities and Management Team from the U.S. Government 
Accountability Office (GAO); Secretary Patricia Bradshaw, 
Deputy Under Secretary for Civilian Personnel Policy of the 
Department of Defense; and Mr. Shelby Hallmark, Director of the 
Office of Workers' Compensation Programs at the Department of 
Labor.
    I had hoped to have a State Department person, a fourth 
panelist, sitting there this morning, and I am very 
disappointed that we do not, and I, frankly, do not understand 
that because this is an opportunity for some of you to make 
cases about any changes we might need to make in personnel 
policies as a Congress in order to get the job done, and, as 
you know, there has been dissatisfaction on the ability of the 
State Department to complete the staffing of the Provincial 
Reconstruction Teams.
    We had a report here, Ginger Cruz from the Special 
Inspector General for Iraq Reconstruction (SIGIR) report that 
the State Department has identified 68 percent of their 
employees on PRTs as of the coming December. So that means, 
after several years, as of this December, we will have only 
identified two-thirds of the civilian State Department staff 
members for PRTs.
    Well, maybe part of it is these issues that we are going to 
be discussing this morning, but the State Department did not 
provide us with a witness this morning, and my own sarcastic 
comment is no wonder we are having problems getting State 
Department employees to Iraq if we cannot get them to the 
Rayburn Building. [Laughter.]
    But we appreciate----
    Dr. Gingrey. It is a southern trick.
    Dr. Snyder. Sorry?
    Dr. Gingrey. It is a southern trick.
    Dr. Snyder. Gingrey, you like that line, don't you? Thank 
you.
    Dr. Gingrey. That is pretty sharp. [Laughter.]
    Dr. Snyder. But, I mean, this committee is being supportive 
to the State Department. We really value the work they do, and 
this committee is in the spirit of trying to help them get 
their work done, and if there is something that the Congress 
needs to do with incentives, then we want to look at it.
    I defer to Mr. Akin for any opening statement he wants to 
make.
    [The prepared statement of Dr. Snyder can be found in the 
Appendix on page 37.]

STATEMENT OF HON. W. TODD AKIN, A REPRESENTATIVE FROM MISSOURI, 
   RANKING MEMBER, OVERSIGHT AND INVESTIGATIONS SUBCOMMITTEE

    Mr. Akin. Thank you, Mr. Chairman.
    And good morning to our witnesses. Thank you for being here 
today.
    In dealing with the benefits and the medical care for 
Federal civilian U.S. contract employees deployed in Iraq and 
Afghanistan, that has a direct impact on how the U.S. 
Government can incentivize U.S. citizens across the Federal 
agencies to deploy to combat zones.
    We have taken a look a little bit at PRTs, we will probably 
be looking at them even more in the future, and, certainly, 
this topic bears on that. I would not be surprised if the 
chairman maybe did not choose this hearing partly along those 
lines.
    While the challenge of getting personnel other than 
military deployed in the theater is multifaceted, the issue of 
pay and health care for civilians operating in theater is a 
major factor affecting the government's ability to recruit 
qualified personnel, whether it be filling civilian positions 
on Provincial Reconstruction Teams or manning a transition team 
to build the capacity of Iraq's or Afghanistan's ministry, this 
subcommittee has firsthand knowledge of how getting the right 
civilians into theater improves the ground operations.
    Today's hearing should give us a sense of the pay and 
health-care benefits civilian Federal employees and contractors 
receive in theater as well as when they return home. This 
information will help the subcommittee assess whether the 
benefits package we offer civilians in Iraq and Afghanistan 
includes the right set of incentives so that the best and most 
capable civilians sign up for these critical posts.
    Finally, I want to state for the record my deep respect and 
appreciation for all the civilians who risk their lives in 
carrying out the critical missions in what is often a very 
dangerous environment. When we discuss Operation Iraqi Freedom 
and Operation Enduring Freedom, the role and work of civilians 
is often overlooked in favor of the warfighter. But if you 
listen to our military, they will tell you that we need to turn 
our attention to the civilian side. I am glad we are listening.
    Thank you, Mr. Chairman, for holding this hearing.
    And, again, thank you for the witnesses for coming here 
today. I look forward to your testimony.
    [The prepared statement of Mr. Akin can be found in the 
Appendix on page 39.]
    Dr. Snyder. Thank you, Mr. Akin.
    Your written statements will without objection be made a 
part of the record. We will now want to hear from you. We will 
start with Ms. Farrell and go down the line.
    Ms. Farrell.

STATEMENT OF BRENDA S. FARRELL, DIRECTOR, DEFENSE CAPABILITIES 
     AND MANAGEMENT, U.S. GOVERNMENT ACCOUNTABILITY OFFICE

    Ms. Farrell. Thank you, Mr. Chairman, Mr. Akin, members of 
the subcommittee. Thank you for the opportunity to discuss our 
2006 report on DOD's policies for Federal civilians who 
deployed to Afghanistan and Iraq.
    To begin, let me emphasize that as DOD has expanded its 
involvement in overseas military operations, it has grown 
increasingly reliant on its Federal civilian workforce to 
provide support in times of war or national emergency. Since 
fiscal year 2005, DOD has been converting thousands of military 
positions to civilian positions, and additional conversions are 
planned for the future. Therefore, the need for attention to 
policies and benefits that affect the health and welfare of 
these individuals becomes increasingly significant.
    Now let me summarize my written statement in three parts.
    First, in 2006, we reported that DOD had established 
policies to assess the medical condition of civilians both 
before and after deployment, but it lacked a quality assurance 
mechanism to ensure implementation of health requirements.
    Our review of over 3,400 deployment records found that DOD 
lacked documentation that some Federal civilians who deployed 
to Afghanistan and Iraq had received, among other things, 
required before and after deployment health assessments and 
immunizations. As a larger issue, DOD lacked centralized data 
to readily identify its deployed civilians, track their 
movement in theater and monitor their health status.
    Today, I wish to note that DOD has taken action to track 
deployed Federal civilians. DOD issued policy effective in 
December 2006, which requires the components within three years 
to report locations for all deployed DOD personnel, including 
civilians. Further, in February 2007, DOD issued a new 
instruction that, if properly implemented, would ensure that 
medical requirements are being met.
    Second, we found DOD had established medical treatment 
policies for its deployed Federal civilians. We reviewed a 
sample of seven workers' compensation claims, out of an 
identified universe of 83, filed with the Department of Labor 
under the Federal Employees Compensation Act (FECA) by DOD 
Federal civilians who had deployed to Iraq. We found that the 
care provided was consistent with DOD policies.
    There were three cases where initial care was provided in 
theater and seven cases where DOD civilians, who requested care 
after returning to the United States, had received initial 
medical examinations and/or treatment for their deployment-
related injuries.
    The Department of Labor could not identify claims from 
civilians deployed to Afghanistan, so our review was limited to 
claims for civilians who had deployed to Iraq.
    Finally, Mr. Chairman, the myriad of pays and benefits for 
DOD personnel is a very complex area. Our work has found that 
changes are made to military personnel compensation in a 
piecemeal fashion with an imprecise understanding of how the 
changes will affect the total cost of compensation or what the 
return on investment decision makers should expect.
    Further, DOD Federal civilians and military personnel are 
governed by a distinctly different system. Thus, caution should 
be exercised in making any direct comparisons between civilian 
military pay. Our work in 2006 found that both DOD civilians 
and military personnel are eligible to receive special pays to 
compensate them for deployment. However, the types and the 
amounts differ.
    For example, unlike DOD Federal civilians, military 
personnel receive combat zone tax exclusion while deployed to 
Afghanistan and Iraq. In contrast, DOD Federal civilians are 
eligible for a variety of premium pays, such as overtime and 
night differential, that are not available to military 
personnel.
    Also, as with special pays, the types and amounts of 
benefits vary between military personnel and Federal civilians 
for those who sustain an injury while deployed.
    Mr. Chairman, in summary, DOD has a number of policies in 
place for medical care and compensation for those deployed, but 
effective implementation is paramount.
    That concludes my opening statement. I will be happy to 
take questions at your convenience.
    [The prepared statement of Ms. Farrell can be found in the 
Appendix on page 42.]
    Dr. Snyder. Thank you, Ms. Farrell.
    Secretary Bradshaw.

STATEMENT OF HON. PATRICIA S. BRADSHAW, DEPUTY UNDER SECRETARY 
 OF DEFENSE (CIVILIAN PERSONNEL POLICY), DEPARTMENT OF DEFENSE

    Secretary Bradshaw. Good morning.
    Mr. Chairman and subcommittee members, thank you for this 
invitation today. I appreciate the opportunity to discuss the 
Department of Defense's view on medical-care coverage for our 
deployed civilians and highlight the various benefits and 
incentives that we have in place.
    DOD civilian employees have had a long and proud history of 
serving along with and supporting our military members, and 
today, more than ever, we see our civilian workforce 
transforming into one that is more global and expeditionary to 
meet the department's 21st century mission requirements.
    As you noted, since 2001, we have had approximately 1,500 
Department of Defense civilian employees deployed to 
Afghanistan and over 6,000 deployed to Iraq. Currently, we have 
approximately 300 civilians serving in Afghanistan and about 
1,750 in Iraq.
    These brave civilians are working side by side with our 
military members to support our national security mission. And 
they fill a variety of positions, from accounting and budget to 
logistics, equipment maintenance and repair, information 
technology and, as you noted, most recently, working with the 
State Department. We developed and led an initiative to use a 
capabilities-based approach to meeting Provincial 
Reconstruction Team needs and helping to fill those 
requirements.
    Civilian employees with the Department of Defense volunteer 
for assignments to serve on these PRTs, based upon their 
personal skills and capabilities not inherent in their current 
positions. Typically, civilians are deployed based upon their 
position of record.
    The department had well over 1,000 resumes from DOD 
civilians who were willing and able to help in the rebuilding 
of Iraq. We were able to fill 40 of those. That was our 
allocation from State.
    Under the department's current authority, however, the 
department can deploy DOD civilian employees to hostile or 
combat areas based upon their position responsibilities. These 
positions are coded as what we call emergency essential, or EE, 
positions. These positions are announced with an EE requirement 
and employees sign statements agreeing to the terms of these 
position requirements before they are hired.
    In circumstances where a position is identified afterwards, 
the incumbent is provided with a notice and an opportunity to 
decline that, and we then will find a reassignment opportunity 
for that individual.
    Although the department has the authority to forward deploy 
DOD civilians based upon these position responsibilities, the 
majority of our jobs are volunteer. These employees contribute 
their talent to the joint integrated national security mission.
    So why would they do that? We have held a number of focus 
groups with our employees and asked them that question, and 
they give us a variety of reasons, from their desire to serve 
their country, witness the results on the ground, and engage in 
this very specific mission-focused work. They state that it is 
an honor and a privilege to serve our country and to serve our 
warfighters in such deployments. They also come back with a 
greater appreciation and a broadened perspective of what the 
Department of Defense's role is in time of war.
    Thanks to you, the Congress, we have also been able to 
offer additional financial incentives to our Federal civilians 
serving in Iraq and Afghanistan. Currently, deployed civilians 
assigned to Iraq and Afghanistan as part of their compensation 
package receive a 35 percent danger pay allowance, a 35 percent 
foreign post differential, and they have the opportunity for 
increased premium pay limit of $212,000. This particular 
benefit must be renewed annually.
    Additionally, thanks to you, the Congress, last year, 
Public Law 109-234 authorized all Federal agencies through 
fiscal year 2008 who have civilians deployed to be provided 
with the same allowances, benefits and gratuities comparable to 
those provided to members of the Foreign Service. These 
included such benefits as enhanced death gratuity level, home 
leave and rest and recuperation breaks.
    Additionally, employees serving in Iraq and Afghanistan for 
specific periods of time are eligible for the Secretary of 
Defense's Global War on Terror Medal. This medal recognizes 
their service and is much like an expeditionary medal that we 
award to our military members.
    In addition, those who pay the ultimate sacrifice and are 
injured or killed in theater may also be eligible for the 
department's Defense of Freedom Medal, which is equivalent to 
the military Purple Heart.
    As the department civilian support expanded in the theater 
of operations, policies have been implemented to provide DOD 
deployed civilians both pre- and post-deployment assessments, 
health assessments and a prescription for professional medical 
treatment both in theater and upon their return to the States.
    As noted by my GAO colleague, we have updated our 
instruction on deployment health. This instruction specifically 
requires that each of the defense components execute a 
comprehensive deployment health program. The regulation 
requires essential pre- and post-deployment health assessments 
which include a mental health component.
    Prior to deploying, DOD civilians are required to obtain a 
physical examination. Of course, the purpose of this exam is to 
determine a number of things: first of all, the existence of 
any non-deployable medical conditions, which are identified by 
the combatant commanders working with the medical community and 
identify the required immunizations. These records become part 
of the lifecycle maintenance of the employee, as long as they 
are deployed, and serve as the base line for medical screening 
upon their return from their deployment.
    Regrettably, our employees are not immune to the dangers 
associated with these global assignments. To date, in Iraq, as 
noted, we have 118 employee injuries and seven deaths. 
Currently, we understand, we have four claims for post-
traumatic stress disorder (PTSD) and two claims for traumatic 
brain injury that have been accepted by the Department of 
Labor.
    Any civilian employee injured in theater receives immediate 
medical attention equivalent to our military members. Deployed 
civilians who were treated in theater continue to be eligible 
for treatment in a medical treatment facility, a military 
medical treatment facility or a private-sector medical facility 
upon their return to the U.S. for any of their compensable 
injuries or diseases. This care is provided at no cost to the 
employee.
    Additionally, deployed civilians who later identify 
compensable illnesses or injuries are also eligible for 
treatment at our military medical treatment facilities or a 
private sector medical facility at no cost to them for coverage 
under the workers' compensation plan.
    Furthermore, DOD policy mandates that Federal civilian 
employees returning from deployment must be scheduled for a 
face-to-face health assessment with a trained health-care 
provider within 30 days after returning. The assessment must 
include a discussion of mental health and psychosocial issues 
commonly associated with deployment. Additionally, after 90 to 
100 days, they must have another follow-on assessment.
    While you have already heard the GAO concluded we did a 
good job on the seven cases that we reviewed, in terms of 
following our policy, there is always one that falls through 
the crack, and I think you are well aware of that one. And so 
we did have one case of a Department of Army employee who was 
one of the early injuries in Iraq, and the department 
acknowledges that there were a number of unfortunate mistakes 
that were made. The treatment was not consistent with the 
department policy.
    However, we learned a lot from that particular event. We 
learned that these policies are sometimes well documented, but 
not well known and not well understood. Since our knowledge of 
this particular case, I personally have been working with the 
Department of Army and its components and my staff to resolve 
the issues and concerns of this particular employee.
    As a result of these early errors, we have been working on 
improving the policies for our deployed civilians and, more 
importantly, on the communication of these policies.
    In summary, our civilian employees play an integral role in 
supporting our military members around the globe. We are proud 
of our brave men and women who volunteer for these types of 
assignments, and we are committed to ensuring that they have 
the appropriate compensation, benefits and that their health 
care is first and foremost in our mind.
    Thank you for this opportunity. I look forward to your 
questions.
    [The prepared statement of Ms. Bradshaw can be found in the 
Appendix on page 74.]
    Dr. Snyder. Thank you, Madam Secretary.
    Mr. Hallmark.

  STATEMENT OF SHELBY HALLMARK, DIRECTOR, OFFICE OF WORKERS' 
  COMPENSATION PROGRAMS, EMPLOYMENT STANDARDS ADMINISTRATION, 
                    U.S. DEPARTMENT OF LABOR

    Mr. Hallmark. Good morning, Mr. Chairman and members of the 
committee. Thank you for the opportunity to come and talk about 
the OWCP role--that is the Office of Workers' Compensation 
Programs--in delivering benefits to both of the groups at issue 
here today, civilian Federal workers and civilian contractor 
employees who are injured or killed while working in the Middle 
East.
    OWCP directly administers the Federal Employees 
Compensation Act, or FECA, for feds, and we oversee the 
delivery of insurance benefits under the Defense Base Act for 
contractors.
    FECA, which we affectionately call it, provides workers' 
compensation for three million Federal employees and postal 
workers around the world. It is a generous program.
    All injuries and all occupational diseases are payable. 
Disabled workers receive two-thirds of their date of injury 
salary or three-fourths if they have a dependent, and it is tax 
free. There is essentially no cap on weekly benefits, as there 
are in almost all other workers' comp programs, and there is no 
limit to the duration of time that an individual can receive 
benefits.
    One hundred percent of medical costs related to the injury 
are reimbursed. There is no co-pay. And vocational 
rehabilitation services are provided as well, and anything we 
pay is charged back to the employment agency.
    We work very hard to ensure that Federal workers' cases are 
handled promptly and properly, especially for war zone claims. 
Injured workers file their claims through their employing 
agency and the latter, as Ms. Bradshaw has indicated, makes 
special efforts to expedite the processing of overseas claims 
and providing medical services, in come cases, in remote 
locations.
    If the worker cannot return to work quickly, OWCP will 
assign a vocational rehabilitation nurse to help in the medical 
recovery and to return to work.
    Since 2004, we have identified 194 FECA claims from Iraq. 
Most were routine accidents or exposures, but about a quarter 
of those derived from combat injuries. Ten were death claims, 
11 were emotional conditions, and four for traumatic brain 
injury. To date, more than $1.7 million has been paid in FECA 
benefits to this group of workers and their families.
    Of course, not all claims are meritorious. Some lack 
medical evidence or simply do not meet the criteria established 
in law. But claimants have multiple chances to ask for a 
reconsideration of any decision or for an oral hearing or they 
can file a formal appeal with the employees' compensation 
appeals court.
    Your invitation, Mr. Chairman, addressed questions about 
one particular FECA claim which was mentioned. We will provide 
a full accounting of that case in a letter to the committee. In 
summary, I can say that I believe it was handled properly, but 
because of the sensitive circumstances involved in that case, I 
would prefer not to describe it in detail in this open forum.
    As I said, OWCP also administers the Defense Base Act 
(DBA). The DBA is an extension of the Longshore and Harbor 
Workers Compensation Act covering employees of overseas 
contractors working for Federal agencies. While OWCP actually 
determines and pays FECA benefits, in DBA, we are an oversight 
entity and the program is private insurance driven, like most 
state workers compensation systems.
    OWCP authorize insurers. We offer technical assistance. We 
track claims. We work to resolve disputes between the insurer 
and the employee, and the Department of Labor offers 
administrative appeals from either of those two parties, if 
there are disputes, and makes formal decisions.
    DBA benefits are generally similar to FECA, except that in 
DBA we pay two-thirds of the pre-injury salary, subject to a 
maximum weekly benefit amount of $1,114 as of this year. Again, 
it is a tax-free benefit.
    As expected during times of war, the number of claims under 
the DBA has risen from about 800 in 2003 to more than 5,700 
last year, and we expect 14,000 DBA claims to be filed in 2007, 
primarily from Iraq and Afghanistan, but DBA, of course, covers 
people all over the world.
    As with FECA, however, the majority of those claims are for 
routine industrial accidents as opposed to combat injuries. 
Some are combat related, but most are not.
    The DBA covers both American civilian workers and foreign 
nationals who work overseas for U.S. contractors. In the Middle 
East, the delivery of benefits has been challenging due 
especially to cultural differences and other barriers that we 
find with respect to foreign nationals and having to do with 
problems of maintaining continuity of service for injured 
American workers when they return home.
    OWCP has no enforcement authority under DBA, but we have 
worked hard to provide effective compliance assistance to 
contracting agencies, contractors and insurance companies. We 
believe those efforts have been helpful and that the industry 
has, in fact, improved its handling of these challenging 
claims. We monitor DBA insurers' activities closely at the case 
level in our district offices and through periodic meetings 
with the insurance industry leaders.
    And we understand the subcommittee is concerned 
particularly about individuals who incur war-related head 
wounds and psychological impacts, such as post-traumatic stress 
disorder. Both of our two programs fully address these 
conditions. Under FECA, as I said, any medical condition can be 
accepted--that is not true in all workers' comp systems, by the 
way--as long as medical evidence establishes that the condition 
relates to the job.
    We do not use a separate diagnosis code for combat injuries 
because the same kinds of conditions that can arise in a combat 
situation, such as traumatic injury of the brain, amputation, 
PTSD, can also be sustained in non-combat situations, and we 
know how to handle those cases. Medical conditions are 
categorized in relation to the individual's medical diagnosis 
using the International Classification of Diseases (ICD) 
system, regardless of the cause or source of the injury.
    The injured worker has the initial choice of physician. 
They can, obviously, in many cases go to a DOD facility in 
Iraq, but then when they are home, they can choose a private 
physician of their choice, or they can use military facilities. 
We will refer individuals to other specialists if their 
condition requires that and it is connected to the accepted 
injury.
    As indicated, our FECA record showed that 11 cases from 
Iraq had been filed involving emotional or stress conditions, 
four involving traumatic brain injuries, and all but two of 
those cases have been approved.
    All conditions likewise are compensable under DBA. The 
Defense Base Act, however, ensuring efforts to determine 
whether conditions are, in fact, work related can require time 
consuming collection of evidence and expert medical 
evaluations. The DBA, like most workers' comp systems, is an 
adversarial system. The employer can provide evidence, the 
employee can provide evidence, and then there can be disputes.
    So we have met with the insurance industry leadership 
specifically to address the handling of PTSD cases arising from 
the war zone, and we think we have noted improvements in their 
efforts in that regard.
    OWCP is sensitive to the hardships endured by Federal and 
contractor employees in the war zone. We continue to work 
closely with our FECA partner agencies and with Defense Base 
Act stakeholders to provide the best possible claims services 
and outcomes.
    I will be pleased to answer your questions. Thank you.
    [The prepared statement of Mr. Hallmark can be found in the 
Appendix on page 83.]
    Dr. Snyder. Thank you all for your testimony. Mr. Akin and 
I will put ourselves on our five-minute clock, and then we will 
go to members, priority given to those who were here at the 
time of the beginning of the hearing and then the order in 
which people came in after that.
    At the conclusion either of our first or second round, 
depending on how we are doing with time, Mr. Akin, I think I 
will give the staff an opportunity to ask any questions they 
may have for five minutes, because some of this is pretty 
technical stuff, and they help sort it out.
    Mr. Hallmark, I recently met with a State Department 
employee from back home. I assume that under your 
Administration of the statutes that you outlined, you are 
talking about all Federal civilian employees--is that correct--
or all contractors?
    Mr. Hallmark. The numbers I quoted were all Federal 
employees.
    Dr. Snyder. My point is you are not here to say, ``I am the 
person that oversees DOD civilian claims.''
    Mr. Hallmark. No.
    Dr. Snyder. It does not matter to you.
    Mr. Hallmark. We cover all three million Federal workers.
    Dr. Snyder. Right. And he had not worked in Iraq, though he 
worked overseas, but, as you know, there is a great 
communication between employees all over the world now and 
their old friends.
    He was under the impression from an experience a friend of 
his had, who was wounded in Iraq by a mortar round, that the 
man was having difficulty making his case for a workers' comp 
claim because he was playing basketball or something after 
hours, and it was not an on-duty experience. Is that an 
accurate reflection?
    I am going to make the cases as dramatic as I can. There 
was a beer festival in honor of his birthday at midnight, and 
he had three days off in country and was hit by a mortar. Would 
he be covered under the statutes that you outlined in a war 
zone?
    Mr. Hallmark. Well, I cannot say that I am a claims 
examiner who is fully equipped to make those kinds of 
adjudicatory judgments sitting at the table here. Clearly, the 
example that you have given gets to some of the boundary lines 
that are established in our regulations and case law.
    One of the key elements in accepting a case has to do with 
performance of duty. When the injury occurred, was the 
individual in performance of duty? There is a tremendous and 
complex amount of case law defining how that works, not just in 
this kind of circumstance, but when a person is on temporary 
duty (TDY), and they are engaged in some kind of activity that 
is or isn't part of the intended purpose for their travel.
    I cannot say with regard to that particular case whether 
our examination of the claim would find that the injury was 
covered. On the other hand, it may very well be covered, 
because there are certain circumstances, such as doctrine of 
the special zone of danger, where coverage is not limited to 
just the eight hours that you are in the office, but to a 
larger period of time, maybe 24/7, because of the circumstances 
that you are in.
    So, off the top of my head, it sounds like a coverable 
injury, but it also sounds like one that we would probably need 
to develop and ask questions about.
    Dr. Snyder. Well, that is a pretty basic question for what 
we are talking about. When Secretary Bradshaw is trying to 
entice a thousand people to step forward, I think most of them 
are going to assume, ``If I am hit by a mortar or my car blows 
up when I am driving to the beer festival, because it is an act 
of war, that I will be covered.''
    As a civilian employee, if you are saying they are not 
going to be covered, that has big ramifications for them and 
their employee, if there is even a possibility. I think that is 
something that this committee needs to have clarified fairly 
rapidly.
    I think most of them would just assume that any kind of a 
war wound would clearly be covered. Otherwise, you know, are we 
saying like 15 hours a day they are on their own in terms of--
--
    Mr. Hallmark. I would assume----
    Dr. Snyder. I think we need to clarify----
    Mr. Hallmark [continuing]. That condition would be covered. 
I just am not able to provide you a----
    Dr. Snyder. Why don't you get----
    Mr. Hallmark [continuing]. Certain decision----
    Dr. Snyder [continuing]. Back to us fairly quickly on that?
    Mr. Hallmark. Sure.
    [The information referred to can be found in the Appendix 
beginning on page 95.]
    Dr. Snyder. I think that is a pretty basic----
    Mr. Hallmark. The circumstances are important, and each 
claim that we adjudicate is based on the full state of evidence 
with respect to that case, and, unfortunately, we are obligated 
to be consistent with our case law. So there may be 
circumstances where we are obliged to say, ``Under our statute, 
that falls outside the realm.''
    The example you give probably does not. I would assume that 
under the circumstances of a war situation, an event that 
involved a hostile action like that would clearly be covered. 
But----
    Dr. Snyder. Do you have any comment, Secretary Bradshaw, on 
that specific scenario?
    Secretary Bradshaw. I certainly hope it is covered since I 
am getting ready to travel there----
    Dr. Snyder. Haven't you----
    Secretary Bradshaw [continuing]. Thursday evening.
    Dr. Snyder. Otherwise, you are going to have to work 24 
hours a day so you can make your case to Mr. Hallmark. 
[Laughter.]
    Secretary Bradshaw. But I do appreciate his situation that 
there are circumstances, but I would look forward to the 
clarification as well.
    Dr. Snyder. But, clearly, until this very moment, you would 
have assumed----
    Secretary Bradshaw. Yes, sir.
    Dr. Snyder [continuing]. That any kind of war wound, all 
your people would be covered, correct?
    Secretary Bradshaw. Yes, sir.
    Dr. Snyder. Yes.
    Mr. Akin.
    Mr. Akin. Thank you, Mr. Chairman.
    Part of the reason for getting together here this morning 
was our interest particularly in the PRTs and making sure that 
the coverage and benefits is appropriate. Would any of you want 
to comment on the question of PRTs, or do you have any personal 
experience with that for getting people, and what is the 
relation between benefits and people volunteering to work on 
the PRTs?
    Secretary Bradshaw. Well, I certainly can speak to that 
from the DOD experience. Our employees are detailed to the 
State Department for this purpose, but they are the same 
whether they are performing on the PRTs or whether they are 
performing Department of Defense missions being assigned as an 
emergency essential person or having applied for a vacancy 
announcement. So the benefits are the same.
    Mr. Akin. When I was over here at the Army Engineer school, 
they had some civilians that taught classes or taught us about 
how the maintenance procedure was done. These were civilians 
that came in that were, sort of, professional teachers in a way 
for us. Those would be covered. They would have certain 
benefits while they are civilians who are attached to the 
military. Is that what you are saying?
    Secretary Bradshaw. Yes. If they are deployed into the 
specific area that the benefit describes, whether it is 
specifically Iraq and Afghanistan, which the differentials that 
I described are----
    Mr. Akin. Would they have benefits in Washington, D.C., or 
anywhere in this country?
    Secretary Bradshaw. No, no.
    Mr. Akin. So the----
    Secretary Bradshaw. The ones that I described would not be 
available to them here.
    Mr. Akin. Well, these are benefits for people who are 
deployed.
    Secretary Bradshaw. Correct.
    Mr. Akin. But they are civilians.
    Secretary Bradshaw. Correct.
    Mr. Akin. Now, are they attached to the Army, or are they 
attached to State?
    Secretary Bradshaw. The PRT members are attached to State 
Department, and then they are----
    Mr. Akin. Are they paid by the Army?
    Secretary Bradshaw. They are paid by their home component. 
We have people who volunteered from the Army, the Navy, the Air 
Force, our defense agencies, and they continue to be paid at 
this point by the Defense Department and their home component.
    Mr. Akin. How about if you are State and you volunteer? Are 
you paid by State?
    Secretary Bradshaw. To my knowledge, the State Department 
has, as their primary mission, the PRTs. So those State 
Department employees that are on the PRTs are paid by State 
Department.
    Mr. Akin. So pretty much you are a volunteer, but you are 
spun out of whatever the organization that you normally work 
for.
    Secretary Bradshaw. Yes.
    Mr. Akin. It is a temporary kind of assignment.
    Secretary Bradshaw. Absolutely.
    Mr. Akin. But they are getting the coverage. The coverage 
for all of them is uniform, and it should be good coverage.
    Secretary Bradshaw. Yes. Yes, sir. And that was why, as I 
noted in my testimony, the benefits that you gave us last year 
ended up being aligned with the State Department. Because it is 
not just State Department and Defense Department, but, as I 
think Chairman Snyder acknowledged, we have Justice Department 
and Agriculture and others, in many instances, very 
interagency. So we are trying to ensure that the civilian 
Federal employees are receiving comparable benefits.
    Mr. Akin. Yes.
    Ms. Farrell. I know very little about the PRTs, but, as you 
noted, the Special Inspector General for Iraq has noted the 
human capital challenges from the beginning in terms of 
recruiting and retaining staff for those Provincial 
Reconstruction Teams, and DOD graciously provided the resources 
to allow the State Department to identify staff that were 
willing to go.
    But what you are raising could be an emerging issue. We are 
in the third phase, the staffing the PRTs, and what is starting 
to emerge is that in addition to the DOD personnel that Ms. 
Bradshaw has noted, we are growing in numbers from the 
personnel from the State Department, as well as from 
Agriculture, Commerce and Treasury. So the interagency 
coordination is going to be challenging, I believe, in Iraq, as 
well as making sure that the equity of benefits is understood.
    As you know, some of DOD's benefits have been administered 
differently among the services--the Air Force, the Army, the 
Navy, in Continental United States (CONUS)--and it becomes more 
challenging for them when they are overseas. So what you are 
going to have now in Iraq is a Treasury employee and a State 
Department employee and a Defense employee comparing notes 
about the pay and benefits, and I think it is important to look 
at those and see what is available.
    We have seen other issues emerge, such as deployment 
cycles. Te rotations are different among the services, and they 
are different amongst the military personnel as well as the 
civilian personnel.
    It is a good question you raise.
    Mr. Akin. Thank you.
    Thank you, Mr. Chairman.
    Dr. Snyder. Mr. Jones.
    Mr. Jones. Thank you, Mr. Chairman.
    Mr. Hallmark, if families of workers killed overseas are 
receiving DBA benefits from the Department of Labor, can the 
families also sue the contractor for damages in court?
    Mr. Hallmark. Well, first of all, the Department of Labor 
does not pay benefits under DBA. The benefits come from the 
employer and the employer's insurer.
    The question you are asking is with respect to the 
exclusivity of workers' compensation benefits, and DBA, like 
most workers' comp systems, is an exclusive benefit. And there 
is in effect a bar on litigation--tort suits--where eligibility 
under Longshore or DBA is shown.
    There happens to be a case in North Carolina right now 
where that issue is being tried, and, obviously, those are 
legal matters where there is a lot of nuance and opportunity 
for both sides of the case to be argued. But, in general, 
workers' comp systems are an exclusive remedy, in effect, a no-
fault insurance system, wherein the worker gives up the right 
to file a tort case, and the employer agrees to provide these 
relatively consistent and promptly paid benefits under the 
workers' comp scheme.
    Mr. Jones. In the world we live in now--and, of course, 
that is one reason you are here--the issue of the contractors--
you made reference to the one in North Carolina, which 
definitely is in my district, by the way. Where is the line? Is 
there a relationship there quasi, I guess, representing America 
and the employees? If they are being paid----
    I should ask Ms. Farrell. In this case, we are talking 
about those who provide security, okay. How is the relationship 
with the government? Obviously, they have to be authorized by 
the Federal Government to go there to provide services. Then 
are there employees who still have the right to some benefits 
from the government, whether it be health benefits, or are they 
just solely under the umbrella of the company that has been 
authorized to go into the country?
    Ms. Farrell. These are contractors and subcontractors. My 
understanding, as Mr. Hallmark has noted, they are covered 
under Defense Base Act, and contracts vary. It is whatever you 
write into the contract.
    Take medical treatment. Generally, it is provided for 
contractors and subcontractors at that Level III care, which is 
at military health hospitals within theater, not the basic 
care, you know, emergency, first aid or the second level of 
care at an aid station. It usually begins at Level III.
    They could write in the contract to have more care, but 
routine dental, routine medical is usually not covered. It 
depends upon the contract in terms of the scope of benefits 
that the personnel might receive.
    We have done very little work looking at contractors in 
theater and their benefits. We did look back in 2005 at the 
Defense Base Act trying to look at the cost and the challenges 
that the agencies had in determining the insurer. DOD, I 
believe, goes with a single insurance. Some of the other 
agencies have multiple insurance companies that cover it.
    We had difficulty reviewing the program because of the data 
reliability issues just determining the number of contractors 
and the different levels of subcontractors. So we were limited. 
I am not sure if that helps or answers your question.
    Mr. Jones. Well, it does help. It is quite a complex 
arrangement that the government has, and, obviously, many of us 
are trying to better understand the contractual agreements so 
that anything you say is helpful. I appreciate that.
    Do you have anything else, Mr. Hallmark?
    Mr. Hallmark. Only that the Defense Base Act has been 
particularly difficult, I think, to administer in the war zone 
in the Middle East. It has been around for a long time.
    It was passed in 1942, but the situations are particularly 
difficult in the Middle East, and the Department of Labor has 
done its best to try to coordinate with the players, with the 
contracting agencies, with the contractors themselves, 
insurance companies, attorneys, the whole group of people who 
all have to work together to make those claims work properly.
    So it is something that we have worked hard at, and I think 
we are making some headway, but it is a challenge.
    Mr. Jones. Thank you.
    Thank you, Mr. Chairman.
    Dr. Snyder. Dr. Gingrey.
    Dr. Gingrey. Mr. Chairman, thank you.
    And I thank our witnesses for being here.
    I want to go back to the situation that the chairman was 
walking about in regard to a defense civilian employee getting 
injured in their off-duty time by a combat event, if you will. 
I think that was a real good point he brought up, and I do 
also, as I am sure all committee members, look forward to a 
response, and I would guess that the answer would be clearly 
they should be covered.
    On the other hand, if that particular scenario that the 
chairman presented was out playing basketball, celebrating at a 
beer festival, and in the course of playing basketball fell on 
the court and sustained a head injury, I do not think that 
individual would be eligible for a claim against the government 
for traumatic brain injury, as an example, and I would think 
that you would agree with that.
    So, you know, you just have to balance very carefully and 
make sure we get it right, and I think from all three 
witnesses, I would assume, we are getting it right.
    I wanted to ask maybe Honorable Bradshaw, in regard to that 
EE situation, the emergency situation, Department of Defense 
civilians, of course, you are talking about?
    Secretary Bradshaw. That is correct.
    Dr. Gingrey. In certain job descriptions, that is part of 
their contract.
    I want to make sure I understand. They could actually be 
deployed. There would be a need, and they could be deployed 
just as anybody else who is actually serving in the military, 
either actively, reserve or even a guard component, but they 
could be assigned.
    Now I think you said that they would have the opportunity 
to decline if there was somebody else that would step forward 
and volunteer to fill that position. But suppose there was not 
and they still declined. What are the recourses of the 
Department of Defense, their employer, in regard to that?
    And then as another follow-on in regard to getting--this is 
a different question but somewhat related--our Federal civilian 
employees to take these positions, whether it is PRTs through 
the State Department or maybe the Department of Defense to 
assign someone to a PRT under the auspices of the State 
Department. We know that we are not getting enough. I do not 
know what the percentage is--I think it was mentioned--maybe 60 
percent. Are we providing them enough incentive to fill these 
volunteer roles?
    And finally, does this enhance their career opportunities 
if they serve in these capacities, either voluntarily or if 
they are actually made to serve?
    Secretary Bradshaw. The first question about the emergency 
essential designation because these employees know upfront, and 
basically sign a contract acknowledging that they understand if 
they serve in an emergency essential position, that they are 
expected to deploy, if they decline to go, very technically, we 
have the right to remove them from that job and take whatever, 
you know, the worst possible action could be, you know, 
separating someone.
    I would tell you that would not be something we would do, 
but the technical letter of the law allows us to do that, 
because they have signed up to that and that is their job and 
that is the expectation.
    In all reality, as you have already noted, if we have had a 
circumstance where, because of whatever the individual 
situation is, that they are not able to go at that point, we 
work with them to move them to another job and to get another 
volunteer.
    But, at the end of the day, we can force them to go and 
deploy because they have signed an agreement that says they 
know that up front, just like any other contract.
    Dr. Gingrey. And real quickly, the last part of my 
question--I know I am running out of time--but in regard to the 
incentives in place to get people to volunteer to take these 
positions, whether it is on a PRT team or otherwise, does it 
enhance their career opportunity if they do this?
    Secretary Bradshaw. We see the enhanced opportunity for 
these experiences, at least within the Department of Defense, 
because forward deployment and being expeditionary has not 
always been an inherent part of a civilian employee's 
opportunity, and as part of where we believe the department is 
going, particularly as we look for our leadership for the 
future, we want people who have had these kind of experiences, 
who have actually served with our members and understand what 
it means to be forward deployed.
    So I would tell you we are building those kind of 
experiences into our career progression systems as extra 
credit, or at least making one absolutely more competitive for 
advancement.
    In terms of incentives, I can only speak to DOD. I cannot 
speak to the State Department situation. But, as I noted, we 
had over a thousand resumes of individuals who just really 
wanted to go and serve because they believed in what we are 
doing there. So I believe that at least what we are offering 
today seems to be working.
    Dr. Snyder. Mr. Conaway.
    Mr. Conaway. Thank you. Well, thank you, Mr. Chairman.
    Appreciate everybody being here.
    Ms. Bradshaw, you said there were 118 injuries. As a result 
of The Washington Post article, have you gone back and looked 
at all 118? I mean, that does not seem to be a very daunting 
number of cases to go back and look at and make sure you have 
dotted the i's and crossed the t's with respect to that. But 
you guys looked at all 118 to make sure everything is all 
right?
    Secretary Bradshaw. No, sir. I did not go back and look at 
all 118. We relied on working with the worker compensation 
office, with Department of Labor, and----
    Mr. Conaway. Okay. Was the subject of The Post article in 
that 118, or was he someone who came back and later decided he 
was injured?
    Secretary Bradshaw. No. He was clearly one of the 118. He 
was one of the earliest in that number.
    Mr. Conaway. Okay. And as a result of that publicity, no 
one else has stepped up to say that they have been mistreated 
at this stage that you are aware of?
    Secretary Bradshaw. No, sir. No, sir.
    Mr. Conaway. Okay. Now, Mr. Hallmark, now you mentioned 
that there are hard caps under DBA for disability. You said 
two-thirds, up to $1,100 a month.
    Mr. Hallmark. Right. A week. $1,100 a week.
    Mr. Conaway. A week, yes. How does that compare to the 
civilian similar circumstance? Usually, there is no cap on 
that. Is the dollar differential about the same?
    Mr. Hallmark. As I said, FECA is one of the more generous 
workers' comp systems in the world. Almost every other system 
has a cap based on the average weekly wage of people covered. 
The cap in FECA is for GS-15, step 10, so only Senior Executive 
Service (SES) individuals would receive less than either two-
thirds or three-fourths of their date of injury salary. Whereas 
in a program like DBA, a person who is making more than the 
average weekly wage would not get the full two-thirds.
    Mr. Conaway. What would be the GS-15, step 10?
    Mr. Hallmark. It is in the $140,000 range, I believe.
    Mr. Conaway. Okay.
    Mr. Hallmark. So most of our recipients receive 75 percent, 
so it is substantially more. That would be in the range of 
$100,000 something per year. So you can do the math.
    Mr. Conaway. Ms. Farrell, I did not see any recommendations 
in your report. Did I just miss those, or did you guys make 
recommendations?
    Ms. Farrell. There were recommendations regarding the 
quality assurance mechanism needed to be put in place to make 
sure that civilians receive those before and after health 
requirements.
    DOD, as I mentioned, has an instruction that was issued in 
February of this year that would make such a mechanism happen, 
but that is the reason it is so important that they move 
forward and implement that instruction.
    Mr. Conaway. And, Ms. Bradshaw, I heard you say you have 
done that.
    Secretary Bradshaw. Absolutely. And we took those 
recommendations to heart, sir, and we have implemented the 
instruction which calls for and basically audits the components 
accountable for ensuring both the pre- and the post-deployment 
assessments.
    We have conducted one audit since the instruction was 
implemented, and we have those on the schedule now to go out 
and do that and make sure that that happens, in addition to 
finally integrating our tracking systems so that we actually 
know what is happening.
    So we took those to heart.
    Mr. Conaway. Mr. Hallmark, just one final thing, you made 
an interesting turn of a phrase when you were talking about DBA 
insurance companies making improvements in their progress. Your 
phrase was ``We think we have noted progress.'' First is, you 
have actually noted progress. I am not sure I understood
    Mr. Hallmark. Well, I was not trying to be----
    Mr. Conaway. You have noted progress or----
    Mr. Hallmark. I was not trying to be equivocal, but, again, 
the cases are actually handled by the insurance companies. We 
only have an oversight role. So, in the context of----
    Mr. Conaway. You have noted progress?
    Mr. Hallmark. I am sorry?
    Mr. Conaway. You have noted progress?
    Mr. Hallmark. We have been advised by the insurance 
companies. There are three major companies that do most of the 
work in the Middle East in the DBA area. We have been advised 
by them about procedures. For example, they have hired, in many 
cases, local Arabic-speaking representatives to help foreign 
nationals file claims. They have brought on specialists to deal 
with PTSD cases more rapidly and effectively.
    So we have been advised that those things have happened. I 
was only saying that I cannot speak to the fact of what the 
outcomes of those initiatives are, but they appear to us to be 
positive initiatives and progress.
    Mr. Conaway. All right.
    Mr. Hallmark. If I could take one moment for a point of 
order here?
    Mr. Conaway. Sure.
    Mr. Hallmark. The question that Congressman Gingrey raised 
about the scenario of an individual who was injured in a 
basketball event similar to the other one, but it is not a 
mortar but simply a fall, and he hits his head, I cannot speak 
to whether we would approve that or not. We might very well 
approve that claim as well.
    Again, it gets to the whole set of issues that we would 
have to look at in terms of the evidence of any given case. And 
I would point also to the fact that, in some cases, the 
scenario that the chairman raised might bring into question 
whether the person had violated safety rules or other kinds of 
instructions that the employee was bound by. And so even if it 
were, in fact, a hostile action, there may be a complexity.
    So we will give you an answer on the scenario, but, in 
fact, the workers' comp world is a complex world, and it is not 
one that is particularly amenable to across-the-board 
judgments.
    Dr. Snyder. Mrs. Davis.
    We will have time for both Mrs. Davis and Mr. Andrews to 
have their five minutes.
    Mrs. Davis for five minutes.
    Ms. Davis of California. Okay. Thank you, Mr. Chairman.
    Thank you all for being here.
    I wanted to look at the issue of PTSD, and I think, 
Secretary Bradshaw, you mentioned that only, I think, four 
cases out of 6,000 civilian employees presented themselves as 
cases of PTSD, and yet some of the surveys would indicate that 
even among diplomatic personnel stationed in Iraq and 
Afghanistan, about 15 percent are coming in with that 
diagnosis. Can you explain then? Is it partly the differences 
of jobs, or what is it that you would see such low numbers 
among the civilian employees?
    Secretary Bradshaw. My suspicion at this time is that 
perhaps we have not had enough aware of this, and perhaps they 
have not reported it. It also may be the jobs. It may be the 
location of the jobs. I think it is something we will explore. 
We are learning so much more about it, as you know, from our 
military side, and I think as we become more informed and 
smarter about this, it might help us understand the low numbers 
specifically in----
    Ms. Davis of California. Well, I was especially interested 
because you mentioned the face-to-face interviews, and that is 
one task that certainly the military is using to try and bring 
people in and bring people in after an extended period of time. 
And we still do not, obviously, have this right on the military 
side, but I am just wondering whether something about the 
communication with personnel or the openness of discussing 
these issues is something that really has not reached them at 
all.
    Secretary Bradshaw. It may very well be, and I really do 
not know. Again, we were surprised at the low number. But, 
again, as we have learned from our military counterparts, as we 
have become smarter about that as a condition that we need to 
pay attention to and that it may not show up for some period of 
time, it may well be that we see an increase as we really 
implement the instruction for the pre- and the post-deployment 
assessments in a very deliberate way. We have just begun that 
process, so it may be that that number goes up. We will----
    Ms. Davis of California. Yes. Are you doing particular 
screening before people are deploying that would help them 
understand the perils or the reaction to being in theater? Is 
that something that did not happen and is happening now?
    Secretary Bradshaw. Yes. We were doing some of that before, 
but I would tell you our experience with the PRTs really helped 
us improve the training, both the sort of psychological and 
social issues that one will encounter, because particularly 
being in a PRT, these folks are actually embedded so they are 
actually deployed out there with our battalions, unlike many of 
our civilians actually serve in the green zone, so they are in 
an office environment. So, as you suggest, that may very well 
be part of why there are fewer claims. They are not out seeing 
the day-to-day conditions.
    Ms. Davis of California. And just the issue of career 
advancement as well, I mean, how does it affect one's career to 
either be a volunteer or to be told to go and to agree to that? 
How is it affecting career advancement and, in fact, is the 
PTSD diagnosis one that people would perceive would hurt 
advancement?
    Secretary Bradshaw. I am sure there are all those 
perceptions and concerns out there, as we have also learned 
from the military and why many of our soldiers and sailors and 
airmen have not come forward. So I think that is certainly a 
concern.
    Ms. Davis of California. What are you doing then to get a 
handle on this so that you can look a year from now and say, 
``Yes, in fact, this was a factor.'' Or is there any way that 
we, you know, if we come back a year from now, can say, ``Okay, 
what''----
    Secretary Bradshaw. In terms of the career advancement of 
individuals?
    Ms. Davis of California. Career advancement. Also, 
identification of PTSD. And education. How can we evaluate that 
a year from now?
    Secretary Bradshaw. And that is a very good question, and 
we are maturing in our understanding of that. I would submit 
that we have a couple of systems in place now. I think the pre- 
and the post-deployment assessment with the mandatory mental 
health component of that.
    Again, we have just really implemented this in a way that 
we are going back and doing, as the GAO chastised us for, 
really holding people accountable. So we are going back and 
looking, ensuring that that data are in the system and that 
somebody is looking at that.
    So my hope would be a year from now, we can look at that 
and we can say, yes, so-and-so was followed up, and we know 
exactly where there were indications where someone should have 
had attention, and they had it.
    In terms of career advancement, I would submit to you the 
specific case with which you are familiar. That individual has 
actually been promoted twice, and part of his condition has to 
do with PTSD. So I think we have a case of one, at last, where 
we have become very sensitive to this issue, and ensuring that 
we work with the individual, that it does not become a career 
detractor. And I think that is really the goal here, and 
working with them under a lot of the flexibilities that the 
Office of Personnel Management (OPM) gives us under what they 
call their career patterns, alternative work schedules, 
flexible working arrangements, that there are ways in which we 
can work with individuals with these conditions to accommodate 
them.
    Dr. Snyder. Mr. Andrews for five minutes.
    Mr. Andrews. Thank you.
    I thank the panel for your testimony this morning.
    If my office received a call this morning from a 
constituent that said that their mom and wife was a DOD 
civilian employee wounded in Iraq and she is in a military 
hospital in Germany about to come home and they said, ``We want 
her to go to Walter Reed for her follow-up care,'' does she 
have the right to do that?
    Secretary Bradshaw. Yes, sir. She does.
    Mr. Andrews. And if the physicians at Walter Reed, the 
therapists, say, ``We think you should continue on an 
outpatient basis here with us over time until your conditions 
are dealt with,'' does she have the right to do that?
    Secretary Bradshaw. Yes, sir. She does.
    Mr. Andrews. Is there an ombudsman or advocate for her that 
my office would call to work through all that?
    The reason I ask this question is the legislation this 
committee adopted, and the DOD has largely started to implement 
since the Walter Reed problem, has set up a sort of case 
manager and ombudsman for wounded soldiers. Is there an 
equivalent person for a wounded civilian person?
    Secretary Bradshaw. We are advocating that that apply to 
the civilian workforce. And, once again, with the unfortunate 
experience of the case to which I keep referring, the Army in 
this case would absolutely say, yes, they would assign a case 
manager.
    Mr. Andrews. Is there statutory ambiguity as to whether the 
act that we passed covers the civilian employee? Do we have to 
make that explicit in the act that we passed?
    Secretary Bradshaw. That would be appreciated.
    Mr. Andrews. It is probably something we should take a look 
at doing.
    The second question I have for you is in the compensation 
side, Mr. Hallmark. Let's assume that this civilian employee 
made $80,000 a year, and she is wounded to the point where 
continuing her prior duties is not doable. She is badly 
wounded. What is the maximum she is entitled to as compensation 
for her injuries?
    Mr. Hallmark. Well, if she is unable to work at all--in 
your example, she had children--she would be entitled to 75 
percent of her date of injury salary, tax free, for as long as 
she is unable to work.
    Mr. Andrews. And this would be handled under the same rules 
of adjudication as any other Federal employee? In other words, 
the burden of proof would be on her to show that the injury was 
job related?
    Mr. Hallmark. There is always a burden on the claimant as a 
matter of law, but in the examples that you give, if the 
individual is involved in a combat situation and she just came 
forward----
    Mr. Andrews. What would your--and not necessarily speaking 
for your whole agency--opinion be of a statutory change that 
would say that the burden of proof would shift in the case of a 
civilian employee in a war zone, that the government would have 
to prove that their injury was not job related, rather than the 
other way around?
    The premise of my question is that, boy, it seems to me 
when you are in the green zone and the mortar shells are flying 
in, and every moment you are in country, as you know 
personally, you are at risk. What would you think about a 
change in the burden of proof where if someone were in the war 
zone and sustained an injury, the burden would be on the 
government to show the injury was not job related, rather than 
on the plaintiff to show that it was?
    Mr. Hallmark. I obviously cannot speak to an Administration 
position on something like that.
    Mr. Andrews. Sure.
    Mr. Hallmark. I would only say that in my long experience 
with workers' compensation, every case is different, every case 
is subject to complexities, and there is a down side associated 
with the notion of the government being required to prove that 
benefits are not payable.
    Mr. Andrews. There is no question. My own sense is, though, 
the down side is outweighed by the extraordinary sacrifices 
these civilian employees are making, and I am not suggesting 
there are not slips and falls in the green zone, but I am 
suggesting that perhaps the right way to differentiate between 
the slip and fall and the traumatic brain injury because of a 
mortar shell is for the burden of proof to fall on the 
government rather than the claimant.
    I mean, we put these folks in extraordinary conditions. I 
realize that is an extraordinary position of law. The workers' 
comp law I know says the burden is almost never on the 
employer, but, of course, very few employers are assigning 
people to a war zone where they are subjected to the risks that 
these men and women are subjected.
    Let me just close by saying please convey to the people 
with whom you work our thanks that they have taken on this very 
difficult job. We are very, very grateful. They are unsung 
heroes, but they are heroes nevertheless, and please convey, 
Madam Secretary, our appreciation to them.
    Secretary Bradshaw. Yes, sir.
    Dr. Snyder. We will stand in recess. We hope you can stay 
with us. We will have a few questions after. We have a series 
of three votes which should not take us a terribly long time. 
The staff will be glad to help you find privacy, phones, 
restrooms, whatever you need during your time here.
    Thank you. We will be right back.
    [Recess.]
    Dr. Snyder. The hearing will come back to order.
    And I had a series of questions if you want to start the 
five-minute clock. Then we will go to Dr. Gingrey and see if we 
have other members come in. We will do that and then go to the 
staff for any questions they might have.
    Mr. Akin may or may not be able to get back.
    Secretary Bradshaw, I wanted to say I appreciate your 
opening statement, your knowledge of whether there were some 
previous problems. What is your formal plan for oversight of 
this? How do you monitor the situation with regard to this, you 
know, reasonably well defined universe of civilians?
    Secretary Bradshaw. I think we have a couple of things in 
place, Mr. Chairman. First of all, we have had a robust effort 
over this last year to have each of the components go through 
and make sure that their EE positions are designated. Let me 
back up there. There are two things that I see that we have, as 
pointed out by the GAO, to focus on, tracking the civilians in 
theater and following up with them when they return.
    So, in terms of getting our arms around those that are 
serving in theater, designating the EE positions, making sure 
that we can pull data from a central file to identify those, we 
have that in place, and we have done a complete scrub, and we 
are expecting a report momentarily from the components on that.
    In terms of tracking the civilians once they go into 
theater, we have had, again, another robust effort over the 
last year to integrate the various systems that are in place by 
the components. And the Joint Staff, who really has overall 
responsibility for tracking military and civilian in and out of 
the war zone, are experimenting right now with a defense 
accountability tracking system that basically will take our 
Common Access Card (CAC) card--and I will find out Friday when 
I show up in theater how well this works--swiping your CAC card 
and being able to track you while you are in theater and track 
your movement. So that is one thing we are looking at, and we 
are working very diligently to get that tracking system in 
place.
    In terms of the follow-on, getting civilians deployed, 
again, it has been a matter of taking these independent systems 
that have been in place with the components, now integrating 
them into a Department of Defense-wide system for health-care 
surveillance, and we now have such a system in place that now 
feeds data from each of the components that have deployed 
civilians, and it feeds into a centralized system, and you can 
see and track whether the pre-employment health-care assessment 
was completed as well as the post-deployment health-care 
assessment was completed and whether all of the items that were 
required were followed.
    As the GAO noted, we had all these great policies in place, 
but they were not necessarily widely known, and we did not have 
an accountability system in place to follow. We have done two 
things in that regard.
    One, I manage a human capital accountability system that 
looks at a number of human resources programs. This is one of 
the specific items that my staff will be looking at on regular 
audits of our systems and compliance. The second one is the 
health affairs part of our personnel and readiness domain has 
responsibility for ensuring that the pre- and post-deployment 
and all the follow-up assessments are completed, and, as noted, 
that instruction went out.
    We have actually conducted one audit to ensure we are going 
to the places where the deployments are being processed and 
actually looking at the data, looking at the processes, 
ensuring that those are done.
    So we have done one, and we are scheduling the rest of 
those audits for this year.
    Dr. Snyder. Ms. Farrell, to your knowledge, has there been 
any GAO look at why the State Department has had difficulty 
filling the PRTs?
    Ms. Farrell. Not to my knowledge. If I could elaborate on 
that?
    Dr. Snyder. Sure.
    Ms. Farrell. As you know, we have done a wealth of work 
looking at medical tracking and the shortcomings that DOD has 
to track their personnel in theater since the mid-1990's, and 
you were asking what do they need to do now, and this is an 
area that, although the instructions are definitely a step in 
the right direction, it is a time for increased management 
attention to make sure that that oversight takes place.
    It was in 1997 that Congress mandated that DOD have a 
tracking system and that that tracking system have the elements 
that we have been talking about today, the pre- and the post-
health assessment. GAO came along a few years later and looked 
at that and noted that the quality assurance mechanism was not 
effective to ensure that that compliance was happening. We were 
looking at servicemembers in the Army and Air Force that served 
in Bosnia.
    Then a few years later, we came along and looked at 
servicemembers who were serving in Enduring Freedom and Iraqi 
Freedom, and we noted that there were the same compliance 
problems. There was missing data--the documentation issues that 
we have been talking about today--that the records were not 
being sent to the central database location at Walter Reed to 
help monitor the trends and the oversight of those who had been 
deployed.
    We followed up with another report looking at reserve and 
guard members, found the same issues that we had with the 
actives, followed up in 2005 looking at pre-existing conditions 
before members were deployed, saw that DOD did not have 
tracking systems in theater to monitor those who were being 
deployed with pre-existing conditions that were treatable in 
theater. But still you needed to closely monitor them.
    Then we issued the report last September looking at 
civilians deployed. The same issues that we have seen with the 
civilians, we have seen and reported on with the reserve and 
guard and with the active duty. DOD has taken steps. They move 
toward the right direction, but definitely close monitoring 
needs to be attended to in this area, and it takes senior 
management oversight and attention.
    Dr. Snyder. Mr. Akin for five minutes.
    Mr. Akin. Thank you, Mr. Chairman.
    Just a question on that very area, because a couple of 
years ago I had a sense that DOD was very weak in that area.
    We had come up with the idea that maybe our office, as a 
congressional office, could come up with a letter that we sent 
home to wives--not wives--at least try to get politically 
correct here--spouses, okay, something to the effect that. ``I 
just wrote you today to let you know how proud we are of your 
wife or your husband that is in theater and the great work that 
they are doing. We want you to know that those of us in 
Congress appreciate that,'' a very personalized kind of thing 
with a little eagle on the top, you know, and hand signed, and 
then send a bunch of those to people, particularly when they 
have had somebody deployed for some period of time. We thought 
that would be at least a nice step toward building family 
relations and letting the family know that we are thinking 
about them.
    I have asked my staff to work on it a number of different 
times and gotten nowhere, and finally came to the conclusion 
that the Army did not have, or the military did not have, a 
personnel database that they could basically go in on 
Congressional District 2 and pull out who we had to crank those 
letters out. And it gave me the sense, I wonder, if we really 
know where our people are. Is that along the same lines as what 
you are talking about?
    Ms. Farrell. Yes, it is. DOD has had difficulties tracking 
servicemembers in theater. Past reports where we have looked at 
medical records going back to the beginning of Enduring 
Freedom, we have had to omit data because----
    Mr. Akin. Well, I think medical records are even more 
complicated. I was just asking where the people are, you know.
    I mean, I used to work for IBM, and I understand the 
massive programming effort that would be to put that kind of 
system together. Is that the sort of thing that could be farmed 
out to a private company like IBM or something to build that 
personnel system, or is that something that we as a government 
or as a military are equipped to do very well?
    Anybody who wants to answer, it is fine. I am not trying to 
be critical. I am just saying that is not easy. It is easy to 
talk about or conceive it. It is not very easy to do it. I know 
that.
    Ms. Farrell. Well, it is not easy because there is 
something like over 550,000 servicemembers that have been 
deployed. We do not know the number exactly, but it is in that 
neighborhood.
    Mr. Akin. Which is the point.
    Ms. Farrell. Yes. And for civilians, it is even shorter.
    DOD does have a system called Defense Integrated Military 
Human Resources System (DIMHRS) that they have been working on 
for some time that would provide some of the answers for 
tracking and other medical records issues, but that has not 
been implemented.
    Perhaps Ms. Bradshaw could speak more to the other 
partnerships that they might have with outside agencies on it.
    Secretary Bradshaw. Well, DIMHRS is expected to be the 
ultimate tool, and we would certainly never undertake the 
actual programming of such a vast system within the department. 
So there are contractors that are working on that with us, and 
it is envisioned that that will be the military system that 
will track and house a lot of this data, as Ms. Farrell noted.
    Mr. Akin. Are you familiar with the status of where that 
project is? It must be behind from what we are hearing, or 
maybe it is not behind. But what do you know about it?
    Secretary Bradshaw. Well, I guess that it has been----
    Mr. Akin. One thing I will tell you ahead of time and brag 
on our chairman. Our interest is solving problems. We are not 
trying to find people to blame. That is our whole tone here. We 
want to be helpful. Is there something we can be helpful in 
that area?
    Secretary Bradshaw. Well, I would be pleased with the 
opportunity to give you a written status on DIMHRS. It has been 
around and underway for some time, and, actually, I retired in 
1999 and they were working on it then. So it was interesting to 
learn that we are still working on it.
    But my sense is in the last number of years, the components 
have actually come together in a collaborative way and have 
actually defined the requirements and are actually leveraging 
the work that has been done previously, and we have a very 
robust oversight council under my boss, Dr. Chu, that is 
overseeing the development of this.
    But we will take for the record to get back to you with 
specifics on it.
    [The information referred to can be found in the Appendix 
beginning on page 99.]
    Mr. Akin. Mr. Chairman, I did not mean to take too much 
time here.
    Is this really the Personnel Subcommittee's turf more than 
our own, because you used to be chairman of that? Are you 
familiar with it?
    Dr. Snyder. Our turf is all of human activity and 
knowledge.
    Mr. Akin. Okay. Good. [Laughter.]
    Dr. Snyder. Having said that, we will work on conjunction 
with our subcommittees so that we are all pulling on the same 
harness, but there are clearly issues. I mean, in this 
subcommittee, we can explore a lot of different things, but we 
want to do it in cooperation with our other subcommittees.
    Mr. Akin. Is that something----
    Dr. Snyder. As you know, Mrs. Davis is one of our committee 
members, and she is the chairperson of the Military Personnel 
Subcommittee.
    Mr. Akin. Yes. Is that something that you have dealt with 
before, that personnel records thing, when you were chairman of 
the personnel thing? Did you run into that problem?
    Dr. Snyder. The----
    Mr. Akin. Military records and where the different military 
people are, knowing where they are, where----
    Dr. Snyder. Yes, that certainly came up.
    Mr. Akin. Okay.
    Dr. Snyder. And then it became an issue, too, in the 
situation we are talking about. When somebody got hurt, both 
their personal effects and their records may not follow along 
with them as they were moving rapidly through the health-care 
system.
    Mr. Akin. Could I ask that we could get a written report of 
the status of that, with at least a reasonable historic 
background of when Congress----
    Ms. Farrell. Sure.
    [The information referred to can be found in the Appendix 
beginning on page 99.]
    Mr. Akin [continuing]. Where we are in those different 
steps?
    Ms. Farrell. We also have ongoing work looking at the 
status of DIMHRS that we would be happy to brief the committee 
or members at any time.
    I want to say, in reference to Ms. Bradshaw talking about 
the components coming together, the Marine Corps wanted to 
establish its own system, and the Navy has been supportive of 
that, having the Marine Corps branch away and have a different 
personnel system and then later go to the DIMHRS.
    So it is an area they are in various stages depending upon 
which component you want to talk about, but we could provide 
you information.
    Mr. Akin. Thank you very much. Thank you.
    Thank you, Mr. Chairman.
    Dr. Snyder. Dr. Gingrey.
    Dr. Gingrey. Mr. Chairman, thank you. This has been a great 
hearing. As I said before we had to leave to go vote, it always 
seems like the best hearings are the ones that get interrupted 
the most times.
    But we appreciate, again, all of you being here.
    Before we did take the break, I had asked a question--and I 
am going to direct this mainly to Secretary Bradshaw and Mr. 
Hallmark--in regard to incentivizing Federal civilian employees 
to take these assignments. And I think, Secretary Bradshaw, you 
indicated that, yes, it was a good thing for them to do, 
whether it was mandatory under the EE program, certainly if it 
is voluntary, that it probably puts them in a little bit better 
position when they come back home.
    I am going to suggest that maybe some formal promise for 
serving and serving well and completion of assignment could 
lead to an increased pay grade or whatever. Now I am showing my 
ignorance of the Federal civilian employment system by maybe 
suggesting that.
    I also wanted to pursue a little bit more this idea of the 
pre-deployment physical that the civilian employees undergo and 
particularly in regard to screening for mental health. Now, you 
know, I am a physician. The chairman is a physician. We have a 
lot of interest in that, and concerns, because I would say in 
particular the condition post-traumatic stress syndrome--or 
post-traumatic stress disease maybe it is called today--is a 
very difficult thing to measure. And while the civilian 
employees are not nearly as likely to come back having 
sustained traumatic brain injury, I would hope, they certainly 
could be just as likely to come back from a deployment in an 
area like the Middle East suffering from post-traumatic stress 
disorder, and so you have to be very careful in evaluating.
    While I am talking about wanting to incentivize people to 
go, there are certain ones that you absolutely would not want 
to go, and maybe Mr. Hallmark could discuss this a little more, 
too, because that is a pretty expensive lifetime of disability 
payments when you get into something PTSD, which is awfully 
hard to say whether a person really has it or whether they do 
not. You know, the same thing to some extent applies to 
traumatic brain injury.
    And wouldn't it be great if there were a blood test that 
could be done pre-deployment and post-deployment for a person 
particularly who has been injured and is concerned about 
traumatic brain injury, if there were some mark or some blood 
marker that could measure not only if it had occurred, but how 
severe and then help our health-care personnel follow the 
progress of the treatment?
    I do not know if I put that in the form of any question or 
not. Maybe you could come up with an answer even though it was 
not phrased in the form of a question.
    Secretary Bradshaw. Well, we certainly concur with your 
observation and, certainly, from a very practical standpoint as 
a doctor, a physician, the difficulty of making those pre-
deployment assessments, and then you say, ``Okay.'' So, if you 
are doing this, what is the threshold at which you say, ``You 
are not deployable,'' if it is a mental health condition?''
    I can only tell you I know of one situation where we 
actually had a PRT member volunteer who got to the training 
that we provided, and through the observation of some very 
alert leaders on the ground and the psychologists and doctors 
assigned there, we actually made that type of assessment and 
did not allow that person to deploy.
    So is there a checklist by which you can just follow the 
checklist and then, at the end of the day, hope you get to the 
right answer? Probably not. But there are some general 
guidelines and principles. Our leaders also have to be leaders. 
They need to be able to look for those types of behaviors and 
things.
    And I would submit that those are the types of people that 
we put into these training centers where individuals are 
processed before they are deployed, so we have experienced 
leadership on the ground that observe and watch the civilians--
and, I presume, the military members as they come through as 
well--for exactly those types of things. So it is not just 
resigned to a checklist of ``Did you answer this question 
well?'' but what is the general observation.
    Dr. Gingrey. Madam Secretary, thank you.
    Mr. Chairman, I know I have run out of time, but if Mr. 
Hallmark can comment, would that be all right?
    Mr. Hallmark. Well, I would, I guess, simply say that 
typically in the workers' comp world, it is very difficult to 
do much in the way of prescreening that is satisfactory and 
helpful. I mean, the only example where it is pretty 
straightforward--and you were talking about if we had a blood 
test--but hearing loss you can do prescreening for to some 
extent and identify, you know, existing loss, and then look at 
how that plays out in the later employment.
    But, as you point out, PTSD and similar psychological 
conditions are very ambiguous in the first place, and finding 
markers for people who might be susceptible to them is probably 
even more difficult. I think this is just one of those areas 
where defense and whoever is sending people over, as the 
Honorable Ms. Bradshaw has indicated, just have to use common 
sense and identify people who look like they may be 
problematic.
    But, for the most part, in workers' comp, you take the 
worker as they come. People get over there, are going to get 
injured, and some of them are going to have bad experiences, 
and then it is our job to try to address the issue, and not 
only pay them benefits and take care of them medically, but 
also work with individuals to get them back to work. And that 
is something that the FECA program truly emphasizes and that is 
very important for the health and benefit of the worker and 
their family and for the taxpayer in terms of the cost of the 
program.
    Dr. Gingrey. Thank you. Thank you both.
    Dr. Snyder. Thank you, Dr. Gingrey.
    Tom, come have a seat up here with us.
    We will give our two staff members here an opportunity to 
ask questions.
    Now you are self-timing yourself here, Steve. I do not 
know.
    First will be Steve DeTeresa and then Tom Hawley.
    Steve, go ahead and put yourself in----
    Dr. DeTeresa. Okay.
    Dr. Snyder. See, you did not start the clock. See. 
[Laughter.]
    Dr. DeTeresa. I have not started my question yet. Thank 
you, Mr. Chairman.
    Actually, I have a two-part question, so I better start the 
clock on myself, and I think both of these would go to Mr. 
Hallmark.
    First is, GAO found in the report that they could not 
examine claims from DOD civilians who were wounded in 
Afghanistan, and that is because there was not any way to track 
them. So the question is, what has been done to remedy that?
    And then the second one, a little more detailed, a little 
more involved, is with Defense Base Act insurance. Who, if 
anyone, is responsible for making sure that all of our 
contractors--U.S. citizens, non-U.S. citizens--have this 
coverage as required by law, and then who, if anyone, is 
responsible for making sure that they actually get the benefits 
they are entitled to under DBA insurance.
    Mr. Hallmark. Well, I will take the easier one first. As 
GAO pointed out, we have not had in place an ability to track 
Afghan cases. The FECA system does not actually give us the 
ability to identify the location of injury in an automated 
fashion. We do get 130,000-plus cases per year. So the manual 
approach is not an effective one.
    However, for Iraq, we set up a special numbering system so 
that we could track and report on those cases. I had actually 
thought that it covered Afghanistan injuries as well, but, you 
know, that was not clarified. So we have now gone back and 
created a separate numbering system for Afghanistan. 
Unfortunately, it starts in the summer of 2007, but we will 
have it for going forward.
    On the Defense Base Act questions, the Department of 
Labor's responsibility is to try to oversee that the program is 
being administered properly, so one of the things we have done 
is hold a number of seminars and compliance assistance programs 
to help the people who are responsible for making it happen do 
their part.
    The contracting agencies--DOD, State, Agency for 
International Development (AID)--primarily are responsible for 
ensuring that the contracts they let that have likely coverage 
under DBA contain provisions that require the contractors to 
obtain Defense Base Act insurance. And so one of the things we 
have done is work with those agencies contracting folks, make 
sure that those kinds of boilerplate provisions are in there.
    Obviously, as time has gone on, that is become more and 
more clear cut. There have been discussions about the cost of 
DBA premiums and trying to procure coverage in more efficient 
and effective ways, and DOD has been in the forefront of that.
    The second part of that question goes to the question of 
once there is, in fact, an injury and we have insurance in 
place, what do we do to make sure that people receive the 
services they are supposed to get? And the answer is the job of 
the insurer, in that circumstance, is to identify cases that 
are applicable and covered under the statute and then provide 
the services.
    That has been, in the case of a war zone, a difficulty, 
and, as I mentioned in my testimony, we have worked with the 
insurers and the contractors themselves to try to work on that 
issue and to make it happen better in the war zone.
    As I believe I mentioned, some of the insurers have taken 
steps such as acquiring resources in Arabic-speaking folks in 
the Middle East who can go and actually be on site and help 
especially foreign nationals file their claims and obtain the 
services that they should receive. That has been an evolving 
practice, but I think there has been, in fact, improvement in 
that regard.
    But it is very difficult, and there are real challenges 
associated with getting services, medical services, especially, 
for foreign nationals, for Iraqis in a country which has a 
very, very weak infrastructure, and where medical services are 
hard to come by for anybody, much less for injured workers in 
this circumstance.
    Dr. DeTeresa. Thank you.
    Dr. Snyder. Go ahead, Tom.
    Mr. Hawley. Just one question. You all testified that the 
incentives across the government are the same statutorily. They 
could be applied by all agencies. They are equal for all 
agencies for civilian pay. And. Ms. Farrell, in your report, 
you stated that the civilian employee deployed to Iraq and 
Afghanistan with the 35 percent danger pay and the post 
differential and with premium pay essentially can more than 
double their salary. DOD has been successful in getting people 
to go, but DOD is on a war footing.
    The State Department is, of course, very interested in 
success in Iraq, but Ginger Cruz testified in exchange with the 
chairman a few weeks ago that State Department culture is not 
there. Is it so much of an incentive question that we cannot 
get other agencies to fill, or is it more of a cultural and 
leadership question, or what needs to be done?
    Is it something Congress needs to do, something the 
agencies need to do? Do they need to change their mentality in 
the Agriculture Department, Justice Department that service in 
Iraq is important, or do they need more money? What is your 
opinion on what needs to be done?
    Ms. Farrell and Secretary Bradshaw.
    Ms. Farrell. Well, again, a word of caution about 
approaching this from a piecemeal fashion. You have to first 
determine the purpose. Is the purpose to provide compensation 
for those who are deployed and an additional benefit is worthy? 
Is the purpose for equity? That is the key. Whenever you look 
at a special pay or a bonus or an incentive, what are we trying 
to accomplish? As far as the incentive to be----
    Mr. Hawley. Well, the purpose would be to get skilled staff 
to accomplish the national mission. So what do we need to do to 
do that?
    Ms. Farrell. And then you have align your human capital 
policies, including any recruiting or retention pay, to meet 
that particular mission and build it into that human capital 
system all the way down.
    Mr. Hawley. So why is DOD successful in doing that and the 
other agencies are not?
    Ms. Farrell. Well, I would ask DOD to look carefully at 
those thousand volunteers and make sure that the thousand were 
specialists that would meet the needs of what you are getting 
to, the mission, or was the population somewhat smaller. I 
think part of it has been reported that the State Department 
has had the culture problem of wanting a more secure Iraq 
before they send their specialists to help build the 
departments, to oversee finance and maintenance and road 
building, et cetera.
    Mr. Hawley. Ms. Bradshaw.
    Secretary Bradshaw. I think your question leads to some 
very exciting initiatives that are actually underway right now, 
and that is the definition about national security and whose 
mission is it. And I would tell you we have a number of things 
going that are trying to break this barrier with other 
agencies, that every Federal employee's job is national 
security, that this blending between and this line between 
homeland domestic and national, it is really starting to blur, 
and that we are really all about national security.
    And so to your question about is this sometimes a cultural 
component of the agency, I would submit, probably so. You work 
for the Department of Defense because you know that there is a 
specific kind of mission there. You work for the Department of 
Agriculture, you see yourself more domestic, and there is a 
Foreign Service component of that.
    But we do have, as I suggested, some initiatives underway 
right now that are really focusing on this interagency blending 
and the commitment and the need for every Federal employee to 
see themselves as involved in national security.
    Mr. Hawley. And who should the committee follow up with to 
learn more about these missions?
    Secretary Bradshaw. I would be happy to come chat with you 
about them.
    Dr. Snyder. Who is the ``we'' when you say ``we have 
initiatives''? Is the we the Department of Defense, or is the 
we an agency----
    Secretary Bradshaw. They are coming out of the National 
Security Council, so the----
    Yes, exactly. There was an executive order on the 
definition of a national security professional looking at 
education that needs to be provided and defining what that 
community looks like, the whole interagency NSPD-44 about 
interagency management. So there is recognition at the highest 
levels in the government right now that the interagency 
coordination needs some work, and we are moving toward it, and 
it is a very exciting opportunity.
    Mr. Hawley. Thank you.
    Dr. Snyder. Thank you, gentlemen.
    We appreciate you all being here today. We apologize for 
the votes, but some of you have been through that before.
    And the hearing is adjourned.
    [Whereupon, at 12:17 p.m., the subcommittee was adjourned.]
     
=======================================================================

                            A P P E N D I X

                           September 18, 2007

=======================================================================

              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                           September 18, 2007

=======================================================================
     
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
      
=======================================================================

             QUESTIONS AND ANSWERS SUBMITTED FOR THE RECORD

                           September 18, 2007

=======================================================================

      
                   QUESTIONS SUBMITTED BY MR. SNYDER

  Benefits and Medical Care for Federal and U.S. Contractor Employees 
                  Deployed to Iraq and Afghanistan\1\

    Dr. Snyder. What are the congressional requirements for medical 
tracking of deployed military servicemembers and civilians?
---------------------------------------------------------------------------
    \1\ GAO, DOD Civilian Personnel: Medical Policies for Deployed DOD 
Federal Civilians and Associated Compensation for Those Deployed, GAO-
07-1235T (Washington, D.C.: Sept. 18, 2007).
---------------------------------------------------------------------------
    Ms. Farrell. Following GAO's May 1997 report,\2\ Congress enacted 
legislation \3\ that required the Secretary of Defense to establish a 
medical tracking system to assess the medical condition of 
servicemembers before and after deployments to locations outside of the 
United States. Specifically, the legislation required the following:
---------------------------------------------------------------------------
    \2\ GAO, Defense Health Care: Medical Surveillance Improved Since 
Gulf War, but Mixed Results in Bosnia, GAO/NSIAD-97-136 (Washington, 
D.C.: May 13, 1997).
    \3\ National Defense Authorization Act for Fiscal Year 1998, Pub. 
L. No. 105-85, Sec. 765 (1997) (codified at 10 U.S.C. Sec. 1074f). DOD 
established force health protection and surveillance policies aimed at 
assessing and reducing or preventing health risks for its deployed 
federal civilian personnel.
---------------------------------------------------------------------------
    ``(a) SYSTEM REQUIRED--The Secretary of Defense shall establish a 
system to assess the medical condition of members of the armed forces 
(including members of the reserve components) who are deployed outside 
the United States or its territories or possessions as part of a 
contingency operation (including a humanitarian operation, peacekeeping 
operation, or similar operation) or combat operation.
    ``(b) ELEMENTS OF SYSTEM--The system described in subsection (a) 
shall include the use of pre-deployment medical examinations and post-
deployment medical examinations (including an assessment of mental 
health and the drawing of blood samples) to accurately record the 
medical condition of members before their deployment and any changes in 
their medical condition during the course of their deployment. The 
post-deployment examination shall be conducted when the member is 
redeployed or otherwise leaves an area in which the system is in 
operation (or as soon as possible thereafter).
    ``(c) RECORDKEEPING--The results of all medical examinations 
conducted under the system, records of all health care services 
(including immunizations) received by members described in subsection 
(a) in anticipation of their deployment or during the course of their 
deployment, and records of events occurring in the deployment area that 
may affect the health of such members shall be retained and maintained 
in a centralized location to improve future access to the records.
    ``(d) QUALITY ASSURANCE--The Secretary of Defense shall establish a 
quality assurance program to evaluate the success of the system in 
ensuring that members described in subsection (a) receive pre-
deployment medical examinations and post-deployment medical 
examinations and that the recordkeeping requirements with respect to 
the system are met.''
    This legislation was amended by a provision in the John Warner 
National Defense Authorization Act for Fiscal Year 2007.\4\ The current 
legislation amends elements of the system and the quality assurance 
program as well as adds criteria for referral for further evaluations 
and minimum mental health standards for deployment. Specifically, the 
current legislation requires the following:
---------------------------------------------------------------------------
    \4\ John Warner National Defense Authorization Act for Fiscal Year 
2007, Pub. L. No. 109-364, Sec. 738 (2006) (codified at 10 U.S.C. 
Sec. 1074f).
---------------------------------------------------------------------------
    ``(a) SYSTEM REQUIRED--Not changed by the current legislation.
    ``(b) ELEMENTS OF SYSTEM--
     (1) The system described in subsection (a) shall include the use 
of pre-deployment medical examinations and post-deployment medical 
examinations (including an assessment of mental health and the drawing 
of blood samples) to accurately record the medical condition of members 
before their deployment and any changes in their medical condition 
during the course of their deployment. The post-deployment examination 
shall be conducted when the member is redeployed or otherwise leaves an 
area in which the system is in operation (or as soon as possible 
thereafter).
     (2) The pre-deployment and post-deployment medical examination of 
a member of the armed forces required under paragraph (1) shall include 
the following:
      (A) An assessment of the current treatment of the member and any 
use of psychotropic medications by the member for a mental health 
condition or disorder.
      (B) An assessment of traumatic brain injury.
    ``(c) RECORDKEEPING--Not changed by the current legislation.
    ``(d) QUALITY ASSURANCE--
     (1) The Secretary of Defense shall establish a quality assurance 
program to evaluate the success of the system in ensuring that members 
described in subsection (a) receive pre-deployment medical examinations 
and post-deployment medical examinations and that the recordkeeping 
requirements with respect to the system are met.
     (2) The quality assurance program established under paragraph (1) 
shall also include the following elements:
      (A) The types of healthcare providers conducting post-deployment 
health assessments.
      (B) The training received by such providers applicable to the 
conduct of such assessments, including training on assessments and 
referrals relating to mental health.
      (C) The guidance available to such providers on how to apply the 
clinical practice guidelines developed under subsection (e)(1) in 
determining whether to make a referral for further evaluation of a 
member of the armed forces relating to mental health.
      (D) The effectiveness of the tracking mechanisms required under 
this section in ensuring that members who receive referrals for further 
evaluations relating to mental health receive such evaluations and 
obtain such care and services as are warranted.
      (E) Programs established for monitoring the mental health of each 
member who, after deployment to a combat operation or contingency 
operations, is known--
     (i) to have a mental health condition or disorder; or
     (ii) to be receiving treatment, including psychotropic 
medications, for a mental health condition or disorder.
    ``(e) CRITERIA FOR REFERRAL FOR FURTHER EVALUATIONS--The system 
described in subsection (a) shall include--
     (1) development of clinical practice guidelines to be utilized by 
healthcare providers in determining whether to refer a member of the 
armed forces for further evaluation relating to mental health 
(including traumatic brain injury);
     (2) mechanisms to ensure that healthcare providers are trained in 
the application of such clinical practice guidelines; and
     (3) mechanisms for oversight to ensure that healthcare providers 
apply such guidelines consistently.
    ``(f) MINIMUM MENTAL HEALTH STANDARDS FOR DEPLOYMENT--
     (1) The Secretary of Defense shall prescribe in regulations 
minimum standards for mental health for the eligibility of a member of 
the armed forces for deployment to a combat operation or contingency 
operation.
     (2) The standards required by paragraph (1) shall include the 
following:
      (A) A specification of the mental health conditions, treatment 
for such conditions, and receipt of psychotropic medications for such 
conditions that preclude deployment of a member of the armed forces to 
a combat operation or contingency operation, or to a specified type of 
such operation.
      (B) Guidelines for the deployability and treatment of members of 
the armed forces diagnosed with a severe mental illness or post 
traumatic stress disorder.
     (3) The Secretary shall take appropriate actions to ensure the 
utilization of the standards prescribed under paragraph (1) in the 
making of determinations regarding the deployability of members of the 
armed forces to a combat operation or contingency operation.''
    Dr. Snyder. What work has GAO conducted on this topic?
    Ms. Farrell. Since the 1990s, GAO has highlighted shortcomings with 
respect to the Department of Defense's (DOD) ability to assess the 
medical condition of servicemembers both before and after their 
deployments. Following GAO's May 1997 report, Congress enacted 
legislation (codified at 10 U.S.C. Sec. 1074f) that required the 
Secretary of Defense to establish a medical tracking system for 
assessing the medical condition of servicemembers before and after 
deployments.
    In September 2003, we reported that the Army and Air Force did not 
comply with DOD's force health protection and surveillance requirements 
for many servicemembers deploying in support of Operation Enduring 
Freedom in Central Asia and Operation Joint Guardian in Kosovo.\5\ 
Specifically, our review disclosed problems with the Army's and Air 
Force's implementation of DOD's force health protection and 
surveillance requirements in the following areas: (1) deployment health 
assessments, (2) immunizations and other pre-deployment requirements, 
and (3) the completeness of medical records and centralized data 
collection. Our September 2003 report also raised concerns over a lack 
of DOD oversight of department-wide efforts to comply with health 
surveillance requirements. Specifically, we reported that an effective 
quality assurance program had not been established at the Office of the 
Assistant Secretary of Defense for Health Affairs or at the Offices of 
the Surgeons' General of the Army or Air Force to help ensure 
compliance with force health protection and surveillance policies. We 
believed that the lack of such a system was a major cause of the high 
rate of noncompliance and thus recommended that the department 
establish an effective quality assurance program to ensure that the 
military services comply with the force health protection and 
surveillance requirements for all servicemembers. The department 
concurred with our recommendation, and in January 2004 began 
implementation of its deployment health quality assurance program.
---------------------------------------------------------------------------
    \5\ GAO, Defense Health Care: Quality Assurance Process Needed to 
Improve Force Health Protection and Surveillance, GAO-03-1041. 
(Washington, D.C.: Sept. 19, 2003).
---------------------------------------------------------------------------
    In September 2004, we reported similar issues related to DOD's 
ability to effectively manage the health status of its reserve 
forces.\6\ Specifically we noted that DOD's centralized database had 
missing and incomplete pre-deployment health assessment questionnaires 
because not all of the required health information collected from 
reserve component members had reached DOD's central data collection 
point. We recommended that the Secretary of Defense take steps to 
ensure that pre-deployment health assessment questionnaires are 
submitted to the centralized data collection point as required. DOD 
concurred with our recommendation and noted that revised guidance was 
currently in coordination to clarify the requirement for submitting 
pre-deployment health assessments to the centralized database.
---------------------------------------------------------------------------
    \6\ GAO, Military Personnel: DOD Needs to Address Long-term Reserve 
Force Availability and Related Mobilization and Demobilization Issues, 
GAO-04-1031. (Washington, D.C.: Sept. 15, 2004).
---------------------------------------------------------------------------
    In November 2004, we reported that overall compliance with DOD's 
force health protection and surveillance policies for servicemembers 
who deployed in support of Operation Iraqi Freedom varied by service, 
by installation, and by policy requirement.\7\ At that time, we did not 
evaluate the effectiveness of DOD's deployment health quality assurance 
program because of the relatively short time of its implementation.
---------------------------------------------------------------------------
    \7\ GAO, Defense Health Care: Force Health Protection and 
Surveillance Policy Compliance Was Mixed, but Appears Better for Recent 
Deployments, GAO-05-120 (Washington, D.C.: Nov. 12, 2004).
---------------------------------------------------------------------------
    In October 2005, we reported that evidence suggested that reserve 
component members have deployed into theater with pre-existing medical 
conditions that could not be adequately addressed in theater.\8\ We 
also reported that DOD had limited visibility over the health status of 
reserve component members after they are called to duty and is unable 
to determine the extent of care provided to those members deployed with 
pre-existing medical conditions despite the existence of various 
sources of medical information. We recommended that the Secretary of 
Defense determine what pre-existing medical conditions should not be 
allowed into specific theaters of operations and to take steps to 
ensure that each service component consistently utilizes these as 
criteria for determining the medical deployability of its reserve 
component members. We also recommended that the Secretary of Defense 
explore using existing tracking systems to track those who have 
treatable pre-existing medical conditions in theater. DOD partially 
concurred with our recommendation concerning the identification of pre-
existing medical conditions that would preclude deployment and noted 
that the services had made advances in identifying some pre-existing 
conditions that would preclude deployment, but also stated that due to 
the ever changing nature of theater of operations this list could never 
be fully comprehensive or fully enforceable. DOD also concurred with 
our recommendation pertaining to the use of existing tracking systems 
to track treatable pre-existing medical conditions. Specifically, DOD 
indicated that ongoing refinements to these systems based on lessons 
learned would improve the documentation of medical conditions 
throughout the military services including information concerning 
reserve members with pre-existing conditions.
---------------------------------------------------------------------------
    \8\ GAO, Military Personnel: Top Management Attention Is Needed to 
Address Long-standing Problems with Determining Medical and Physical 
Fitness of the Reserve Force, GAO-06-105. (Washington. D.C.: Oct. 27, 
2005).
---------------------------------------------------------------------------
    As we noted in our statement, our September 2006 report \9\ on 
DOD's policies concerning its federal civilians who have deployed in 
support of operations in Afghanistan and Iraq found that DOD has 
established force health protection and surveillance policies aimed at 
assessing and reducing or preventing health risks for its deployed 
federal civilian personnel; however, at the time of our review, the 
department lacked a quality assurance mechanism to ensure the 
components' full implementation of its policies. To strengthen DOD's 
force health protection and surveillance for its deployed federal 
civilians, we recommended that DOD establish an oversight and quality 
assurance mechanism to ensure that all components fully comply with its 
requirements. In February 2007, the Office of the Deputy Assistant 
Secretary of Defense for Force Health Protection and Readiness 
published a new instruction \10\ on force health protection quality 
assurance. This policy applies to military servicemembers, as well as 
applicable DOD and contractor personnel. The new policy requires the 
military services to implement procedures to monitor key force health 
protection elements such as pre- and post-deployment health 
assessments. In addition, the policy requires each military service to 
report its force health protection and quality assurance findings to 
the Assistant Secretary of Defense (Health Affairs) through the Deputy 
Assistant Secretary of Defense for Force Health Protection and 
Readiness.
---------------------------------------------------------------------------
    \9\ GAO, DOD Civilian Personnel: Greater Oversight and Quality 
Assurance Needed to Ensure Force Health Protection and Surveillance for 
Those Deployed, GAO-06-1085 (Washington, D.C.: Sept. 29, 2006).
    \10\ DOD Instruction 6200.05, Force Health Protection (FHP) Quality 
Assurance Program, February 16, 2007.
---------------------------------------------------------------------------
    We further noted in our statement that, in our June 2007 report 
\11\ on DOD's compliance with the legislative requirement to perform 
pre- and post-deployment medical examinations on servicemembers, DOD 
lacked a comprehensive oversight framework to help ensure effective 
implementation of its deployment health quality assurance program, 
which included specific reporting requirements and results-oriented 
performance measures to evaluate the services' adherence to deployment 
health requirements. Also, we noted in our statement that the 
department's new instruction and planned actions indicate that DOD is 
taking steps in the right direction. We stated and still believe that 
if the department follows through with its efforts, it will be 
responsive to several of our reports' recommendations to improve DOD's 
force health protection and surveillance for the Total Force.
---------------------------------------------------------------------------
    \11\ GAO, Defense Health Care: Comprehensive Oversight Framework 
Needed to Help Ensure Effective Implementation of a Deployment Health 
Quality Assurance Program, GAO-07-831 (Washington, D.C.: June 22, 
2007).
---------------------------------------------------------------------------
    Dr. Snyder. Members of the Subcommittee asked for clarification of 
an individual's entitlement to Federal Employees' Compensation Act 
(FECA) benefits under various scenarios while on assignement to Iraq.
    If an employee stationed in Iraq would be covered under FECA if he 
or she were injured by mortar fire while playing basketball during off 
hours or whether an off duty employee stationed in Iraq who was hit by 
mortar at a beer festival would be covered under FECA. Congressman 
Gingrey questioned whether the individual playing basketball would be 
covered under similar circumstances but the injury resulted from 
participation in the basketball game rather than from mortar fire.
    Mr. Hallmark. The Federal Employees' Compensation Act (FECA) states 
that:

         Disability or death from a war-risk hazard or during or as a 
result of capture, detention, or other restraint by a hostile force or 
individual, suffered by an employee who is employed outside the 
continental United States . . . is deemed to have resulted from 
personal injury sustained while in the performance of his duty, whether 
or not the employee was engaged in the course of employment when the 
disability or disability resulting in death occurred or when he was 
taken by the hostile force or individual. 5 U.S.C. Sec. 8102(b).

    A war-risk hazard is defined as a hazard arising from a war in 
which the United States is engaged; during an armed conflict in which 
the United States is engaged. The hazard may arise from the discharge 
of a missile; action of a hostile force or person; the discharge or 
explosion of munitions; the collision of vessels in a convoy or the 
operation of vessels or aircraft engaged in war activities. Employees 
who reside in the vicinity of their employment who are not living there 
solely due to the exigencies of their employment (local hires) are only 
covered while in the course of their employment.
    Therefore, an injury or death of an employee deployed to Iraq 
resulting from mortar fire while playing basketball and/or at a beer 
festival would be covered under the FECA unless the disability or death 
was the direct result of certain statutory exemptions, i.e. caused by 
willful misconduct of the employee or proximately caused by the 
intoxication of the injured employee.
    The question of coverage in the case of an employee who sustains an 
injury such as broken leg as a direct result of participating in the 
off-duty basketball game is more complicated. As I noted in my 
testimony, each claim must be considered on its merits given the 
individual circumstances. When the employee engages in personal 
activities not reasonably incidental to the duties of the temporary 
assignment contemplated by the employer, injury occurring during such a 
deviation is not compensable. However, if the basketball game was an 
employer sponsored recreational or social activity, such injury would 
be covered under FECA. With regard to such recreational or social 
activities, the Employees' Compensation Appeals Board (SCAB) has held 
that such activities are covered when: they occur on the employer's 
premises during a lunch or recreational period as a regular incident of 
the employment; or the employer, by expressly or impliedly requiring 
participation, or by making the activity part of the service of the 
employee, brings the activity within the orbit of employment; or the 
employer derives substantial direct benefit from the activity beyond 
the intangible value of improvement in employee health and morale 
common to all kinds of recreation and social life.
    While Federal employees abroad are not covered around the clock 
under all situations, FECA (in a manner similar to other workers' 
compensation systems) recognizes a number of potentially applicable 
doctrines that extend workers' compensation coverage for Federal 
employees injured in circumstances not directly related to their job 
duties.

    <bullet>  The zone of special danger doctrine provides coverage of 
injuries to employees sustained in foreign countries if the obligations 
or conditions of employment overseas expose them to hazards not common 
to all travelers.

    <bullet>  The proximity rule provides coverage for injuries 
suffered due to a hazardous condition proximate to the employment 
premises.

    <bullet>  The positional risk doctrine provides coverage for 
employees where the only connection of the employment with the injury 
is that employment obligations placed the employee in the particular 
place at the particular time when he or she was injured by some neutral 
force, meaning by ``neutral'' neither personal to the claimant nor 
distinctly associated with the employment.

    <bullet>  The rescuer doctrine provides coverage in an emergency to 
include any act designed to save life or property in which the employer 
has an interest.

    <bullet>  The bunkhouse rule provides coverage where an employee is 
injured during the reasonable use of employer provided housing which 
the employee is required or expected to occupy.
                                 ______
                                 
                    QUESTIONS SUBMITTED BY MR. AKIN
    Mr. Akin. We had come up with the idea that maybe our office, as a 
congressional office, could come up with a letter that we sent home to 
wives--not wives--at least try to get politically correct here--
spouses, okay, something to the effect that. ``I just wrote you today 
to let you know how proud we are of your wife or your husband that is 
in theater and the great work that they are doing. We want you to know 
that those of us in Congress appreciate that,'' a very personalized 
kind of thing with a little eagle on the top, you know, and hand 
signed, and then send a bunch of those to people, particularly when 
they have had somebody deployed for some period of time. We thought 
that would be at least a nice step toward building family relations and 
letting the family know that we are thinking about them.
    I have asked my staff to work on it a number of different times and 
gotten nowhere, and finally came to the conclusion that the Army did 
not have, or the military did not have, a personnel database that they 
could basically go in on Congressional District 2 and pull out who we 
had to crank those letters out. And it gave me the sense, I wonder, if 
we really know where our people are. Is that along the same lines as 
what you are talking about?
    I think medical records are even more complicated. I was just 
asking where the people are, you know.
    I mean, I used to work for IBM, and I understand the massive 
programming effort that would be to put that kind of system together. 
Is that the sort of thing that could be farmed out to a private company 
like IBM or something to build that personnel system, or is that 
something that we as a government or as a military are equipped to do 
very well?
    Are you familiar with the status of where that project is?
    Ms. Bradshaw. The Defense Integrated Military Human Resources 
System (DIMHRS) will be a fully integrated, all-Service, all-Component, 
military personnel and pay system that will support military personnel 
throughout their careers and retirement--in peacetime and war.
    When fully implemented, DIMHRS will provide better service to 
military personnel and their families, including a timely and accurate 
record of service and delivery of compensation, benefits, and 
entitlements. DIMHRS will ensure the most efficient use of human 
resources in the conduct of the military mission, including support to 
the warfighter, and ensure visibility and accountability of military 
personnel to authorized users, as well as provide timely and accurate 
human resources information to authorized users. The system will 
enhance the ability to put the right person in the right place as 
quickly as possible (including acquisition and retention, as well as 
assignment and deployment).
    DIMHRS will ensure the accurate assignment and tracking of 
personnel. Services and Components will know exactly what organization 
a Service member was associated with at any given point in time. For 
example, if a Reservist is called to active duty, attached to a 
Continental United States Replacement Center, further attached to a 
theater replacement activity, and attached to a unit within a theater 
of operations, DIMHRS will reflect the Service member's status and 
organizational association throughout that period of service. DIMHRS 
will also reflect the Service member's ``home'' organization (Reserve 
unit for Reservists) and all those ``host'' organizations to which the 
Service member is attached throughout the period of service. DIMHRS has 
the capability of nested hosts, so temporary assignments and details 
can be shown without losing visibility of primary home and host 
assignments. For classified locations, DIMHRS will capture unit 
associations on at least a daily basis and classified systems will 
track unit locations. DIMHRS will provide the ability to link to the 
location (for purposes of determining exposures or other incidents) 
through the unit. The full tracking capability requires the 
disconnected operations capability for use in theater.
    The Under Secretary of Defense for Personnel and Readiness 
developed and maintains the Military Personnel and Pay Standards that 
are the enterprise requirements for DIMHRS.
    In December 2005, the Department of the Navy (DoN) transferred the 
DIMHRS program acquisition to the Defense Business System Acquisition 
Executive under the Department's Business Transformation Agency.
    The Defense Business Systems Management Committee chaired by the 
Deputy Secretary of Defense, is closely tracking the DIMHRS progress 
through monthly updates. DIMHRS is currently undergoing System 
Integration Testing, and is programmed for deployment to the Army in 
October 2008, and deployment to the Air Force in February 2009. The DoN 
is currently working with the Director for Program Analysis and 
Evaluation to determine a schedule for migration to DIMHRS. When the 
DoN migration is complete, the Department will have a single military 
personnel and pay system.
    Additionally, the Department has created a temporary tracking 
system--called the Contingency Tracking System (CTS) Deployment file. 
The CTS Deployment file includes Operations Enduring Freedom and Iraqi 
Freedom (OEF/OIF) data and is updated monthly. It covers the entire 
OEF/OIF timeline from September 11, 2001 to the present. The file 
contains one record for every deployment location event submitted for 
each member. For the purposes of building this file, an OEF/OIF 
``deployment'' is defined as a Service Member physically located within 
the OEF/OIF combat zone or area of operations, or specifically 
identified by his/her Service as ``directly supporting'' the OEF/OIF 
mission (i.e., United States Air Force Aircrew or support personnel 
located outside the combat zone). A deployment must include a specific 
begin date and end date, and will include the member's location on 
specified dates if provided by the Service. The contingency tracking 
system does not currently include civilians or contractors.

                                  <all>

</pre></body></html>
